<html>
<title> - U.S. POLICY TOWARD IRAQ: MOBILIZING THE OPPOSITION</title>
<body><pre>[Senate Hearing 106-241]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-241

 
           U.S. POLICY TOWARD IRAQ: MOBILIZING THE OPPOSITION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 23, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 61-045 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Chalabi, Ahmad, member, Executive Presidency, Iraqi National 
  Congress, London, England......................................    16
    Prepared statement of........................................    21
Clawson, Dr. Patrick, director for research, the Washington 
  Institute for Near East Policy, Washington, DC.................    23
    Prepared statement of........................................    26
Francke, Rend Rahim, executive director, Iraq Foundation, 
  Washington, DC.................................................    28
    Prepared statement of........................................    32
Jones, A. Elizabeth, Principal Deputy Assistant Secretary of 
  State for Near Eastern Affairs, Department of State............     2
    Prepared statement of........................................     5
Wellstone, Paul, U.S. Senator from Minnesota, prepared statement.    12

                                 (iii)


           U.S. POLICY TOWARD IRAQ: MOBILIZING THE OPPOSITION

                              ----------                              


                        WEDNESDAY, JUNE 23, 1999

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                               South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 11:18 a.m., in room SD-562, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman of the 
subcommittee) presiding.
    Present: Senators Brownback and Wellstone.
    Senator Brownback. I will call the hearing to order. I 
understand Senator Wellstone will be here shortly, but we will 
go ahead with the presentations.
    I want to apologize to everybody in attendance for being 
late. We had a markup over at the Commerce Committee and I was 
unavoidably detained. So, I do apologize for that. I apologize 
to the witnesses. Hopefully we will still be able to conduct 
the hearing in a timely fashion.
    Deputy Secretary Jones, welcome to the committee. Thank you 
for being willing to come back and up and to discuss Iraq and 
the Iraqi opposition. We have some distinguished panel members 
that will be presenting after you as well.
    As you know, the Iraqi National Congress Executive 
Committee was here in Washington recently. Assistant Secretary 
Indyk and you met with the group, as did Secretary Albright and 
Sandy Berger. And you are probably aware that they also had 
meetings up here on Capitol Hill in the House and the Senate 
side. I might note to you they were very well received in the 
meeting I had where a number of Senate leaders were there, 
including both Senator Lott and Senator Daschle. It was an 
excellent meeting. It was a good discussion, a frank discussion 
about what the United States needs to do in moving forward.
    I was also encouraged to see the INC folks united with a 
single message here in Washington, Dr. Chalabi. There were 
those who told me--I think you might have been one of them, 
Secretary Jones--that the INC was no longer a viable opposition 
group to Saddam Hussein. It has always been my position that 10 
different groups, all fighting each other, are not going to 
deal with the Saddam problem. We, the United States, needed to 
put all of our power and prestige behind one unified group 
which could then represent a real threat to Saddam on the 
ground. I now think we are well on our way to having that 
group.
    I would like to commend the administration for announcing 
that the drawdown under the Iraq Liberation Act is going to 
begin. These people, all the various Iraqi opposition groups, 
the Kurds, Sunni, Shiites, and others that have been united 
under the INC, need to see some tangible support on the ground. 
They are the fighting force in Iraq that are suffering under 
Saddam right now. They are the people who risk the most in 
associating themselves with our policy goal of getting rid of 
Saddam Hussein.
    I notice that some anonymous administration source told the 
Washington Post 2 weeks ago, though, that the Iraqis who came 
to Washington are, as they put it, the ``day-after people.'' 
Aside from the fact that I felt that was an unnecessary insult 
to people who are risking their lives to oppose a vicious 
dictator, I also disagree with the characterization. The 
question is, the day after what? Are we still hoping that some 
magical being will come down and get rid of Saddam Hussein? 
Surely 8-plus years of living with the man has proven that we 
cannot rely on some magic bullet. We need a strategy and we 
need proven allies on the ground.
    I look forward very much to hearing your perspectives on 
the options available to us for ridding the world of Saddam 
Hussein's leadership in Iraq. And I am not going to make any 
secret to you. I am interested in hearing what concrete steps 
the administration will be taking to help the opposition not 
simply with just fax machines and printers and conferences, but 
with tangible, nonlethal and lethal assistance and training. We 
need to get moving. I do not want Saddam to outlast another 
American President.
    I am appreciative, Secretary Jones, of the efforts that 
have been made to date. I am going to continue to press you for 
more efforts. I think now is the time to get moving. I think 
the last time we had this hearing you were talking of some note 
and need of patience and we have been patient a long time with 
Saddam Hussein. And I think it is time we moved very 
aggressively and I think we have got some people that we can 
move with.
    I look forward to your perspective and I look forward to 
discussing it with you and some questions as well. Thank you 
for joining us.

  STATEMENT OF A. ELIZABETH JONES, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY OF STATE FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF 
                             STATE

    Ms. Jones. Thank you, Mr. Chairman. Thank you very much for 
the opportunity to appear before you today.
    Assistant Secretary Martin Indyk is very sorry he cannot be 
here. He is in the Gulf working on some of our broader Gulf 
issues, including Iraq.
    I think that we are moving ahead very rapidly in all of the 
areas that you have discussed, as well as some other areas, and 
I would like to go through some of those briefly this morning.
    Our policy rests on three pillars. First, as long as he is 
around, we want to contain Saddam Hussein in order to reduce 
the threat he poses both to Iraq's neighbors and to the Iraqi 
people. The second one is that we want to alleviate the 
humanitarian cost to the Iraqi people of his refusal to comply 
with U.N. Security Council resolutions. And third, finally, we 
want to work with forces inside and outside Iraq, as well as 
with Iraq's neighbors, to change the regime in Iraq and to help 
its new government rejoin the community of nations.
    The policy of containment with regime change is designed to 
help protect the citizens of Iraq and its neighbors from an 
aggressive and hostile regime. Sanctions diminish the ability 
of Saddam Hussein to reconstitute his military and weapons of 
mass destruction capabilities. Operations Northern and Southern 
Watch deter Saddam from using his air force against his 
civilian populations north of the 36th parallel and south of 
the 33rd. The United States maintains a robust force in the 
region which we have made clear we are prepared to use should 
Saddam cross the well-established redlines. Those redlines 
include: should he try to rebuild or deploy his weapons of mass 
destruction; should he threaten his neighbors; should he 
challenge allied aircraft in the no-fly zones; or should he 
move against the Kurds in northern Iraq.
    I would like to be particularly clear on this point: The 
United States is concerned for the protection of all Iraqis 
against the repression of the Baghdad regime. Besides those 
living in relative safety in parts of northern Iraq, the world 
should not forget that Iraqi Shiites in the south, tribal Sunni 
Arabs in the west and center, the Turkomans and Assyrians, and 
even Tikritis themselves continue to suffer from Baghdad's 
daily repression.
    We are committed to maintaining U.N. Security Council 
controls on the Iraqi regime while lifting the burden of 
sanctions off the backs of the Iraqi people through the 
expansion and streamlining of the oil-for-food program.
    The humanitarian relief program, as I said, is the second 
pillar of our policy. Sanctions were never directed against the 
humanitarian needs of the Iraqi people. Food and medicine are 
specifically exempt from sanctions. Iraq has always been free 
to buy and import these goods, but Saddam Hussein has long 
chosen not to do so in order to manipulate public opinion by 
deliberately causing the suffering of his own citizens. Despite 
interference by the regime, the oil-for-food program has 
ensured that the people of Iraq receive the food and medicine 
which their government denies them.
    There is a fundamental principle at work here. As long as 
the current Baghdad regime is in defiance of Security Council 
resolutions, we will never allow it to regain control of Iraq's 
oil revenues. They will continue to be escrowed by the U.N. and 
their uses controlled by the U.N. sanctions committee. This 
same approach underpins the British/Dutch draft Security 
Council resolution currently under consideration in New York. 
The draft would allow for the suspension of sanctions on Iraqi 
exports in return for full compliance by Baghdad with a road 
map of key disarmament tasks. Imports would continue to be 
controlled and effective financial controls would remain in 
place. These provisions are coupled with an effective, 
intrusive arms control regime that preserves UNSCOM's mandate 
and prerogatives. Though there are some aspects of the draft 
which we will seek to improve in the course of Council 
discussions, we support the British/Dutch draft because it 
meets our bottom line criteria: real arms control, expansion of 
the oil-for-food program on the basis of humanitarian need, 
insistence on a standard of full Iraqi compliance for action on 
sanctions, and denial of oil revenues to the regime. This is a 
tough, credible package that deserves Council support.
    On our regime change policy, if it is to be successful, 
change must come from within, from the Iraqis themselves. In 
particular, the security forces and the people must stand on 
the same side. The support of Iraqi exiles, including the 
politically active opposition, along with neighboring states, 
is indispensable. The captive Iraqis need a voice. And, in 
particular, the internal Iraqi resistance needs a voice, 
through the Iraqi opposition living in freedom, to make clear 
to all Iraqis and to the world its aims. The Iraqi National 
Congress has described these resistance aims to us as: first, 
to bring the security forces to the side of the people in 
changing the regime; and second, after the current regime 
passes, to stand with all Iraqis in promoting reconciliation 
and reconstruction.
    Free Iraqis, those in exile and those who live in relative 
freedom in northern Iraq, bear a special responsibility to 
develop a coherent vision for a brighter future. They must take 
the lead in developing and promoting an alternative vision 
based on the restoration of civil society, the rebuilding of 
the economy, and the promotion of a new role for Iraq as a 
force for peace and reconciliation in the region. They can also 
play an effective role in delegitimizing Saddam Hussein, in 
helping to build the case for his prosecution as a war 
criminal, and in getting the truth into and out of Iraq. And, 
as Iraqis committed to a future vision of Iraq that appeals to 
Iraqis inside and to Iraq's neighbors, they can best build the 
case for the support of regional states to channel more 
material assistance to the Iraqi people and their resistance 
elements.
    Congress has provided the administration with a number of 
important tools to support Iraqis who are working toward a 
better future for Iraq. These include earmarks of $8 million in 
existing economic support funds. We are using these funds to 
strengthen opposition political unity, to support the Iraq war 
crimes initiative, to support humanitarian programs and the 
development of civil society, and for activities inside Iraq.
    We have also established and recently stepped up 
broadcasting hours for Radio Free Iraq, which operates 
independently and broadcasts daily in Arabic uncensored news 
and information to the Iraqi people.
    Our Special Coordinator for Transition in Iraq, Frank 
Ricciardone, is managing the overall effort. Mr. Ricciardone 
has already had considerable success in helping disparate 
opposition groups work together and elect a new interim 
leadership that right now is preparing the way for an Iraqi 
opposition conference aimed at achieving a broader 
participation and a more effective program of activity. Last 
month, as you mentioned, Secretary Albright met with an Iraqi 
delegation, including the INC interim leadership and prominent 
independents, to underscore the administration's support for 
their efforts. And we are very grateful that they were very 
warmly received on the Hill as well, as you mentioned.
    Finally, there is the Iraq Liberation Act which provides 
discretionary authority to the President to direct up to $97 
million in Defense Department drawdown and training for 
designated Iraqi opposition groups. We are in the process now 
of drawing down this account for the provision of equipment and 
training to the opposition.
    Many have called on the President to use this authority to 
arm the Iraqi opposition and support armed insurrection against 
Saddam Hussein. There are a host of issues that must be 
resolved before we can have confidence that providing arms to 
the Iraqi opposition would advance our objectives of promoting 
a change of regime and not just lead to more Iraqis being 
killed unnecessarily. One requirement is a credible, broad-
based Iraqi political umbrella movement that can 
authoritatively articulate a future vision for those Iraqis who 
now lack a voice in their own fate. Such a movement is 
indispensable to reassure those few Iraqis now supporting 
Saddam Hussein that there is no future for them or Iraq under 
his regime while there is a bright future afterwards, even for 
them. Hence, the first kinds of support which we aim to provide 
to the Iraqi opposition under the drawdown will be to meet 
their most basic requirements: equipment for the infrastructure 
vital to the effectiveness of an international political 
advocacy movement, broadcasting equipment, and training in 
civil affairs, including disaster relief operations. Further 
kinds of material assistance to the Iraqi opposition can be 
provided when they can best be absorbed and exploited.
    I look forward very much to our discussion. Thank you.
    [The prepared statement of Ms. Jones follows:]

                Prepared Statement of A. Elizabeth Jones

    I am pleased to appear before you this morning to discuss U.S. 
policy towards Iraq.
    Iraq, under Saddam Hussein, remains dangerous, unreconstructed and 
defiant. We have come to the conclusion, after more than eight years of 
effort at seeking Saddam's compliance with UN Security Council 
resolutions, that his regime will never be able to be rehabilitated or 
reintegrated into the community of nations. This conclusion is based on 
what Saddam's record makes manifest--that he will never relinquish what 
remains of his WMD arsenal, and that he will never cease being a threat 
to the region, U.S. interests, and his own people. It is based on 
Saddam's policies, not on any predetermined policy of our own. Thus, in 
November of last year, President Clinton announced a new policy with 
regard to Iraq: henceforth, we would contain Saddam Hussein while we 
sought a new regime to govern in Baghdad. The President committed the 
United States to support those Iraqis--inside and outside Iraq--who 
seek a new government and a better future for all the people of Iraq.
    Eight years after the Gulf War and Saddam's persistent defiance of 
the international community, we are under no illusions that Iraq under 
Saddam Hussein will comply with UNSC resolutions on disarmament, human 
rights, accounting for POW's and the return of stolen property.
    In view of this reality, our policy rests on three pillars. First, 
as long as he is around, we will contain Saddam Hussein in order to 
reduce the threat he poses both to Iraq's neighbors and to the Iraqi 
people. Second, we will seek to alleviate the humanitarian cost to the 
Iraqi people of his refusal to comply with UNSC resolutions. Finally, 
we will work with forces inside and outside Iraq, as well as Iraq's 
neighbors, to change the regime in Iraq and help its new government 
rejoin the community of nations.
    Our policy of containment plus regime change is designed to help 
protect the citizens of Iraq and its neighbors from an aggressive and 
hostile regime. Sanctions diminish the ability of Saddam Hussein to 
reconstitute his military and WMD capabilities. Operations Northern md 
Southern Watch deter Saddam from using his air force against the 
civilian populations north of the 36th parallel and south of the 33rd. 
We maintain a robust force in the region, which we have made clear we 
are prepared to use should Saddam cross our well-established redlines. 
Those redlines include: should he try to rebuild or deploy his weapons 
of mass destruction; should he strike out at his neighbors; should he 
challenge allied aircraft in the no-fly zones; or should he move 
against the people living in the Kurdish-controlled areas of Northern 
Iraq.
    Let me be particularly clear on this point: the United States is 
concerned for the protection of all Iraqis against the repression of 
the Baghdad regime. Besides those now living in relative safety in 
parts of northern Iraq, the world should not forget that Iraqi Shiites 
in the south, tribal Sunni Arabs in the west and center, the Turkomans 
and Assyrians, and even Tikritis themselves continue to suffer 
Baghdad's daily repression. Hence, we believe that the world community 
should tolerate no backsliding from Baghdad's obligations under any of 
the UNSC resolutions intended to protect the people of Iraq and its 
neighbors from the depredations of the current Baghdad regime. In 
particular, UNSC resolution 688 twice cited the consequences of 
Baghdad's repression of the Iraqi civilian population as a threat to 
international peace and security. It therefore demanded not only that 
Baghdad ``immediately end this repression,'' but it also insisted that 
Baghdad give ``immediate access by international humanitarian 
organizations to all those in need of assistance in all parts of 
Iraq.'' Baghdad is in flagrant violation of this UNSC resolution, as it 
is of so many others.
    We are committed to maintaining UNSC controls on the Iraqi regime, 
while lifting the burden of sanctions off the backs of the Iraqi people 
through the expansion and streamlining of the oil-for-food program
    This humanitarian relief program is the second pillar of our 
policy. Sanctions were never directed against the humanitarian needs of 
the Iraqi people. In fact, food and medicine are specifically exempt 
from sanctions. Iraq has always been free to buy and import these 
goods, but Saddam Hussein has long chosen not to do so in order to 
manipulate public opinion by deliberately causing the suffering of his 
own citizens. Our response has been first to establish, and then to 
expand, the oil-for-food program, which provides a mechanism for the 
United Nations to control the use of revenues from the sale of Iraqi 
oil for the purchase of humanitarian supplies for the Iraqi people. 
Despite interference by the regime, the oil-for-food program has 
ensured that the people of Iraq receive the food and medicine, which 
their own government denies them.
    There is a fundamental principle at work here. As long as the 
current Baghdad regime is in defiance of the UNSC resolutions, we will 
never allow it to regain control of Iraq's oil revenues. They will 
continue to be escrowed by the UN and their uses controlled by the UN 
sanctions committee. This same approach underpins the British/Dutch 
draft Security Council resolution currently under consideration in New 
York. The draft would allow for the suspension of sanctions on Iraqi 
exports in return for full compliance by Baghdad with a roadmap of key 
disarmament tasks. Imports would continue to be controlled and 
effective financial controls would remain in place. These provisions 
are coupled with an effective, intrusive arms control regime that 
preserves UNSCOM's mandate and prerogatives. Though there are some 
aspects of the draft which we will seek to improve in the course of 
Council discussions, we support the British/Dutch draft because it 
meets our bottom line criteria: real arms control; expansion of the 
oil-for-food program on the basis of humanitarian need; insistence on a 
standard of full Iraqi compliance for action on sanctions; and denial 
of oil revenues to the regime. This is a tough, credible package that 
deserves Council support.
    Although effective, the containment element of our policy has its 
costs. As we have seen repeatedly since 1991, even a contained Iraq 
under its current leadership remains a threat both to the stability of 
the region and to the welfare of the Iraqi people. Both are paying too 
high a price for Saddam's continued rule. In our judgment, both 
urgently deserve better. It is past time for Saddam to go.
    For these reasons, President Clinton announced in November that the 
United States would work with the Iraqi people toward a government in 
Iraq which is prepared to live in peace with its neighbors and respect 
the rights of its people. We are fully committed to supporting the 
Iraqi people in bringing this about. In pursuit of this objective, the 
United States will adhere to two important principles: one, we will 
uphold the territorial integrity of Iraq; and two, we will not seek to 
impose from the outside a particular government or leaders on the 
people of Iraq. We do support a change of government that will be 
responsive to the aspirations of the Iraqi people--one that takes 
meaningful steps toward a democratic future for the country and can 
represent fairly the concerns of all of Iraq's communities. And we will 
work with a new Iraqi government, as it pledges to fulfill its 
international obligations, to lift the sanctions, to deal with the 
large debt burden, and to reintegrate Iraq into the international 
community.
    If it is to be successful, change must come from within, from the 
Iraqis themselves. In particular, the security forces and the people 
must stand on the same side. The support of Iraqi exiles, including the 
politically active opposition, along with neighboring states, however, 
is indispensable: the captive Iraqis need a voice. And, in particular, 
the internal Iraqi resistance needs a voice, through the Iraqi 
Opposition living in freedom, to make clear to all Iraqis and to the 
world its aims. The Iraqi National Congress has described these 
resistance aims to us as: first, to bring the security forces to the 
side of the people in changing the regime; and second, after the 
current regime passes, to stand with all Iraqis in promoting 
reconciliation and reconstruction. Our approach is to work in an 
intensive and coordinated way with these Iraqis and other countries 
that support these aspirations of the Iraqi people.
    Free Iraqis--those in exile and those who live in relative freedom 
in northern Iraq--bear a special responsibility to develop a coherent 
vision for a brighter future. They must take the lead in developing and 
promoting an alternative vision based on the restoration of civil 
society, the rebuilding of the economy, and the promotion of a new role 
for Iraq as a force for peace and reconciliation in the region. They 
can also play an effective role in delegitimizing Saddam, in helping to 
build the case for his prosecution as a war criminal, and in getting 
the truth into and out of Iraq. And, as Iraqis committed to a future 
vision of Iraq that appeals to Iraqis inside and to Iraq's neighbors, 
they can best build the case for the support of regional states to 
channel more material assistance to the Iraqi people and their 
resistance elements.
    Congress has provided the Administration with a number of important 
tools to support Iraqis who are working toward a better future for 
Iraq. These include earmarks of $8 million in existing Economic Support 
Funds. We are using these funds to strengthen Opposition political 
unity, to support the Iraq war crimes initiative, to support 
humanitarian programs and the development of civil society, and for 
activities inside Iraq.
    We also have established and recently stepped up broadcasting hours 
for Radio Free Iraq, which operates independently and broadcasts daily 
in Arabic uncensored news and information to the Iraqi people.
    We have named a Special Coordinator for Transition in Iraq, Francis 
Ricciardone, who is managing the overall effort. Mr. Ricciardone has 
already had considerable success in helping disparate opposition groups 
work together and elect a new interim leadership that right now is 
preparing the way for an Iraqi opposition conference aimed at achieving 
a broader participation and more effective program of activity. Last 
month, Secretary Albright met with an Iraqi delegation, including the 
INC interim leadership and prominent independents, to underscore the 
Administration's support for their efforts. We know they were warmly 
received on the Hill as well.
    Since then Mr. Ricciardone has worked further with the INC on their 
plans for the opposition conference and has also consulted intensively 
with regional states on how best to promote our shared interests in the 
reintegration of Iraq to the world community under a government that 
will act responsibly both internally and externally.
    We have also made progress working with the two major Kurdish 
factions in the North, the PUK and the KDP, to help them reconcile 
their differences and better provide for all the people of northern 
Iraq. Just last week, leading members of both groups came to Washington 
for talks aimed at strengthening the reconciliation process. The two 
major Kurdish leaders, the Turkomans, and other groups from Northern 
Iraq, have played a very positive role in reunifying and reviving the 
Iraqi National Congress. This portends well for the contribution the 
Kurds, Turkomans, Assyrians, and Arabs of the North must also make in 
reunifying and rebuilding Iraq when a new leadership in Baghdad makes 
this possible.
    Finally, there is the Iraq Liberation Act, which provides 
discretionary authority to the President to direct up to $97 million in 
Defense Department drawdown and training for designated Iraqi 
opposition groups. We are in the process of drawing down this account 
for the provision of equipment and training to the opposition.
    Many have called on the President to use this authority to arm the 
Iraqi opposition and support armed insurrection against Saddam Hussein. 
We believe such action is premature. There are a host of issues that 
must be resolved before we can have confidence that providing arms to 
the Iraqi opposition would advance our objectives of promoting a change 
of regime and not just lead to more Iraqis being killed unnecessarily. 
One requirement is a credible, broad-based, Iraqi political umbrella 
movement that can authoritatively articulate a future vision for those 
Iraqis who now lack a voice in their own fate. Such a movement is 
indispensable to reassure those few Iraqis now supporting Saddam 
Hussein that there is no future for them or Iraq under his regime while 
there is a bright future afterwards, even for them. Hence, the first 
kinds of support which we aim to provide to the Iraqi Opposition under 
the drawdown will be to meet their most urgent requirements: equipment 
for the infrastructure vital to the effectiveness of an international 
political advocacy movement; broadcasting equipment; and training in 
``civil affairs,'' including disaster relief operations. Further kinds 
of material assistance to the Iraqi opposition can be provided when 
they can best be absorbed and exploited.
    To channel substantial assistance to those resisting Saddam's 
oppression inside Iraq, we will need the cooperation of Iraq's 
neighbors. Although they all share and support the Iraqi people's 
longing for a change of regime in Baghdad, they have strong views about 
how we can help the Iraqi people reach this goal. We must take those 
views into account, and gain their cooperation in promoting the 
recovery of Iraq as a good neighbor and contributor to regional 
stability.

    Senator Brownback. Thank you, Secretary Jones. Thank you 
for being here today.
    I want to note first, as I noted in my opening statement, 
support for the administration beginning the drawdown of the 
Iraqi Liberation Act $100 million that we put forward. That is 
a good first step. I note with some hesitancy and some 
displeasure that it is for things like fax machines and file 
cabinets that I have seen thus far.
    When will the administration begin supplying military 
equipment to the opposition forces or some more aggressive 
support and use of those funds?
    Ms. Jones. The plan now is, Senator, to identify the 
equipment and the training options that are of most use, as I 
said in my opening statement, to the Iraqi opposition in 
developing their political outreach in order to give the Iraqi 
people a voice, give the Iraqi opposition inside Iraq a voice 
and some themes around which they can build cohesiveness. The 
Iraqi opposition plan, the INC plan, is to host a general 
assembly of as many exiled Iraqis as possible in order to gain 
even more political coherence and to hear the voice of those 
Iraqis as well to hear the voice of Iraqis that they are in 
touch with inside Iraq and to develop a more coherent and more 
detailed plan of action for how to better effect regime change.
    Once they have had that meeting, the idea is that they 
would then communicate with us in greater detail the kinds of 
things that they think would be most useful to them as they 
proceed in their plans.
    Senator Brownback. Is the administration opposed to 
supplying military equipment to the opposition forces?
    Ms. Jones. We are not fundamentally opposed to it at this 
point, but we do not see an effective use of military equipment 
now. Our goal at the moment is to be sure that we are not doing 
something that cannot be absorbed by the Iraqi opposition 
inside the country. In fact, the issue really is not weapons. 
There are plenty of weapons inside Iraq. The issue is 
empowering or having the Iraqi people feel empowered to use 
those weapons to coalesce among themselves and to have the 
security forces and the Iraqi people on the same side against 
Saddam Hussein.
    Senator Brownback. So, if you can see a rational use for 
military equipment by the Iraqi opposition forces, the 
administration will support that.
    Ms. Jones. There is the potential for supporting that, yes. 
It would be hard for us to say now because I do not know what 
the constellation of groups would be that might be able to 
receive such military equipment. As I say, our analysis at this 
point is that there is plenty of equipment already inside, that 
it is not lack of equipment that is holding back the Iraqi 
opposition inside now. It is fear of reprisals and fear for 
their lives and for the lives of their families that is holding 
them back at this point.
    Senator Brownback. I understand that, but I do not 
understand your hesitancy to say, yes, if there is rational use 
for this, we will be rapidly, readily considering military 
equipment to the Iraqi opposition. If I am getting the press 
accounts correct and talking with Secretary Indyk, there is 
virtually daily reports of insurrection, uprisings in various 
places taking place in Iraq. One would derive from that that 
there is an active opposition taking place now and that we 
should be pressing forward aggressively with all means and 
certainly not excluding any means, that we would support that 
opposition.
    Ms. Jones. Senator, I do not think that we exclude any 
means, but I do not think the time is right for those to be 
considered. We would like to be led by the Iraqi opposition 
themselves, as I say, have them consult with the broader Iraqi 
body politic, the exiles and the people that they are in touch 
with inside. They will tell us in a much more considered 
fashion when it is that they think they need those items.
    At the moment what they need most is methods of 
communication and help in communicating, help in developing 
what their vision for Iraq after Saddam Hussein is. One of the 
areas that we have identified that needs work is a fear on the 
part of the Iraqi people inside of the unknown, the fear that 
Iraq will be a dangerous place to live, even a more dangerous 
place to live should Saddam suddenly disappear from the scene.
    We do not think that is the case. We think there are very 
thoughtful people, a tremendous number of thoughtful people, 
who can put together a vision for how one would govern Iraq 
after Saddam Hussein. What would be the principles that would 
govern such a country? For instance, what about reconstruction? 
What about how to ensure a stable, unified Iraq that can take 
its rightful place in the region? How can it do that if the 
international community is insistent on their not developing 
weapons of mass destruction and not having an arsenal of 
weapons of mass destruction? We want to articulate and get 
across the message that we think that Iraq should have a 
conventional military force in order to protect itself. We are 
not asking for a completely stripped bare Iraq.
    We are asking for the Iraqi opposition, the Iraqi exiles, 
and their contacts inside Iraq to develop a good sense of the 
Iraq that will provide for the Iraqi people in terms of their 
humanitarian needs, in terms of medicine, in terms of 
education, in terms of books, in terms of security, in terms of 
good neighbors in a way that is not taking place now.
    Senator Brownback. Well, at least hear this Senator's 
opinion and a number of others that I hope you will consider 
military support because while books and all the other things 
that you are noting are important, if they are not secure from 
Saddam, it is going to be tough to teach kids. And that is just 
going to have to be a first order. I hope you will hear that 
opinion from here and from many other sources clearly.
    As you know the Iraqi National Congress is planning to hold 
a national assembly meeting in July. The most logical place for 
the meeting would be on the ground in northern Iraq. It is 
certainly what all the parties would like to have happen. It is 
what they noted to us when they were here on the Hill meeting 
with the Senate leadership.
    Is the administration prepared to assist the opposition in 
meeting there where it would really count on the ground in 
Iraq?
    Ms. Jones. I think there is no question that that is a very 
good option for a place for the general assembly to meet. There 
are a number of considerations that have to be taken into 
account, security being the most important one. It may be a 
wiser course to have the first general assembly meeting 
elsewhere because the organization of such a meeting is complex 
in itself without having to take very serious security 
considerations into account. And it may be a wiser choice to 
have this general assembly meeting outside northern Iraq and 
have northern Iraq be an option for a further meeting.
    Senator Brownback. So, you are proposing that the initial 
one not be in Iraq and a second meeting sometime later take 
place in northern Iraq?
    Ms. Jones. Well, frankly, it is really not up to us to 
propose. We are being guided by the desires of the interim 
leadership of the INC. That is their contention, as I 
understand it, at this point.
    Senator Brownback. Because we will hear from some of that 
leadership in the next panel. My understanding was it was their 
desire to meet in northern Iraq for the clear statement that 
that is, but they would need United States support for that, 
that Saddam not move in columns on that meeting taking place in 
northern Iraq.
    Ms. Jones. There is no question that it would make a very 
dramatic statement. There is no question of that at all. But as 
I say, the security concerns are legion. I think it is more 
than just columns moving against them. It is something that, as 
I say, I think would be a good one to consider down the road.
    Senator Brownback. I mentioned in my opening statement that 
many of us working for a free Iraq were upset by comments that 
Iraqi opposition figures were suggested by an unnamed 
administration source as day-after guys. Could you clarify the 
administration's view on the Iraqi opposition or what that 
comment meant from an administration source?
    Ms. Jones. I assume that was sort of a partial statement 
along the lines that I just addressed: that the initial effort 
underway now by the INC, by the interim leadership of the INC, 
and by the independent Iraqi opposition in exile is to create a 
voice for the Iraqi people. That has serious implications for 
encouraging regime change now because, as I say, one of the 
things that we have identified is a hesitancy, a serious 
hesitancy, on the part of people inside Iraq who might have 
already moved against Saddam Hussein because they are so 
concerned, but fear what would happen after Saddam Hussein.
    Saddam, of course, is encouraging this view, and we are 
trying to counteract that view. The Iraqi opposition is trying 
to counteract that view with a very concrete vision, very 
concrete suggestions, proposals, discussions among themselves, 
as well as with the rest of the international community, as to 
the kind of Iraq that the Iraqi people could look forward to in 
very concrete terms on the day after Saddam leaves.
    So, their role is to discuss among themselves the kind of 
Iraq that would begin to take shape on the day after, but the 
whole goal is to encourage faster regime change now and to 
dispel the fear of the Iraqi people inside now as to what the 
day after would look like.
    Senator Brownback. Is it your professional opinion that 
Saddam Hussein will outlast the Clinton presidency, or do you 
think not?
    Ms. Jones. To be very honest, I do not know. I do not know.
    Senator Brownback. Is the administration then serious about 
getting rid of Saddam Hussein?
    Ms. Jones. We are very serious about getting rid of Saddam 
Hussein. The sooner, the better as far as we are concerned. The 
activities particularly that Frank Ricciardone has undertaken, 
the intense activity that he has undertaken with the INC, with 
the interim leadership of the INC, with the Iraqi independents 
who are very important players, we think is hastening the end 
of Saddam Hussein, but I am unable to make a prediction as to 
when this will happen.
    Senator Brownback. It just strikes me as odd, and I have a 
great deal of respect for your and for Secretary Indyk's, 
Secretary Albright's abilities. But it just seems like there is 
a great hesitancy here in face of a lot of factors that would 
seem to encourage one to move forward more rapidly if the 
reports that we are getting about sporadic fighting internally 
are taking place, if it is a real consideration that the Iraqi 
National Congress is now pulling together a number of disparate 
factors and disparate groups to work together and that they 
could legitimately consider holding a meeting inside northern 
Iraq. There are some security questions, but clearly still this 
is a real consideration that one would think now is the time to 
move forward and move forward with some aggressive move. And 
yet, what I am hearing on your part is if it outlasts the 
Clinton administration, that is fine. We would rather he not, 
but we are not really going to move with the same dispatch or 
intensity that we did in Kosovo on Iraq.
    Ms. Jones. Well, Mr. Chairman, we certainly do not want it 
to outlast this administration. We do not want it to outlast 
even this year. But you ask for a prediction. I cannot actually 
give a prediction. I do not know when the change will occur.
    It is very accurate, as you have noted, that there is an 
increase in opposition activity in the south, in Baghdad, in 
the west. There is quite a bit of talk; our very strong effort 
now--and I think it is an extremely important effort--is to 
embolden the Iraqis inside to grasp the possibility and act on 
the possibility that they can actually move for regime change 
themselves.
    Senator Brownback. Well, I think they are going to be 
reacting to concrete U.S. steps, similar to what the Kosovars 
did to concrete U.S. steps. I would encourage you to make those 
bolder than what I am witnessing thus far.
    Senator Wellstone, I apologize for taking so long. I had a 
series of ones that I wanted to ask, and thank you for your 
patience.
    Senator Wellstone. No, that is fine. I am sorry to be late. 
I am in and out today. I think, Mr. Chairman, what I will do is 
just ask that my complete statement be included in the record.
    Senator Brownback. Without objection.
    [The prepared statement of Senator Wellstone follows:]

              Prepared Statement of Senator Paul Wellstone

    Thank you for holding this hearing on the Iraqi opposition 
movement, Senator Brownback. I want to welcome our witnesses, Deputy 
Assistant Secretary Beth Jones, Mr. Ahmed Chalabi, Ms. Rend Rahim 
Francke, and Dr. Patrick Clawson.
    One of the toughest foreign policy challenges which falls within 
the subcommittee's purview is Iraq. I think we all agree that under the 
leadership of Saddam Hussein, Iraq is a threat to our interests, our 
allies in the region, and to those most directly affected--the Iraqi 
people themselves.
    Having said that, I do not believe that there are any magic 
strategies to managing Saddam Hussein, parrying his threats against 
neighboring countries and blocking his efforts to develop weapons of 
mass destruction. That will take patient containment and vigorous 
diplomatic efforts. I also believe we must act responsibly and 
carefully in giving any support to Iraqi opposition groups intent on 
overthrowing Saddam Hussein. I am deeply concerned about statements 
made by our military leaders about the lack of support in the region 
for arming external opposition groups and that arming the Iraqi 
opposition might just amount to ``rolling the dice'' in an explosive 
region.
    I'd like to take just a minute to focus on the plight of the Iraqi 
people. We know that Saddam Hussein is the primary cause of the 
suffering of ordinary Iraqis. But we also know that the toughest 
sanctions ever applied to any country are having an unintended, but 
devastating impact.
    While the oil-for-food program has brought badly-needed 
humanitarian goods into Iraq and improved conditions somewhat, the 
reports we receive are still very disturbing. As many as 30% of Iraq's 
children are malnourished; infant mortality rates are soaring; much of 
the population lacks access to clean water and sanitation. These 
abysmal conditions are leading to the decimation of Iraq's once vibrant 
society and culture. Families are breaking apart, crime is rampant, and 
Iraq's youth are being radicalized.
    I know that Saddam doesn't lose any sleep over the suffering of his 
people. But we should care. We should care not only because of the 
awful humanitarian situation, but also because depravation in Iraq can 
harm our long-term interests.
    Some day, and I hope that day is soon, Iraq will have a new 
leadership. If things continue on their present course, that leadership 
may be as bad or worse than Saddam Hussein. We may inadvertently 
contribute to such an outcome if we do not take steps to tangibly 
improve the lives of ordinary Iraqis.
    Right now, the Iraqi people don't believe that we are on their 
side. They feel that they are made to pay for the sins of their 
leaders. We must change that perception.
    I believe the time has come to devise new and creative ways to 
bring relief to ordinary Iraqis with whom we have no quarrel, and 
indeed whose cause we support.
    Iraq, with its rich history and its talented population, can be a 
force for positive change in the Middle East. Unfortunately, today its 
people are denied that chance by a tyrant.
    Thank you.

    Senator Wellstone. I am listening to the flow of discussion 
and I will just sort of try and build on that.
    First of all, to those of you who are part of the 
courageous opposition, I thank you for your courage.
    It does strike me as being that this is a--there is a whole 
set of difficult questions here, and I am not sure there are 
any magic strategies. As much as I wish I could kind of will 
into existence Saddam Hussein's being gone, I am not sure there 
are any magic strategies or magic bullets. I think it is kind 
of a matter of patient commitment and also diplomacy and 
responsible policy.
    I came in when, Secretary Jones, you were discussing the 
British/Dutch proposal, and I thought I might want to talk 
about that for a moment because I know there was a question as 
to if Saddam Hussein's gone, what is then the leadership that 
we are going to be dealing with. I sometimes think--I have been 
pressing for some time now about the need for us to consider 
the effect of the sanctions on a lot of innocent people in Iraq 
and part of the reason that I have wanted to continue to focus 
on that question--I think it is a minority position here to 
keep saying we ought to really think about how we can do this 
differently. But the reason I have been saying it is in part 
because while I do not think Saddam Hussein cares, I think we 
should in terms of our own values. The reports that come out 
about the effects of the sanctions on innocent children are 
just devastating.
    And then the second point is it is almost to me a self-
interest because I sometimes really fear that this turns this 
civilian population against us. In terms of what follows, I 
would like to see a very different kind of a leadership.
    Thus, my first question. I gather that you have already 
said today that we are supportive of the British/Dutch 
proposal. I wanted to just suggest to you and maybe get a quick 
reaction that if as a part of that we are focusing on getting 
weapons inspectors back into Iraq, which I think is critically 
important, I would also like to see an additional component 
which would be human rights inspectors back to really be able 
to document and maybe prevent some of the abuses that Saddam 
Hussein is committing against his own people. I wonder what 
your reaction would be to that.
    Ms. Jones. We certainly are supporting the British/Dutch 
draft. We think there are a few improvements that can still be 
made. It has now been tabled in the Security Council, so there 
will be quite a bit of discussion now and further changes to 
various aspects of the draft.
    One of the key elements of the draft deals with the 
humanitarian situation in Iraq. That is extremely important to 
us, Senator, just as it is to you. The goal of the sanctions 
are to contain Saddam Hussein. We do not want the sanctions to 
have an effect on the Iraqi people. That is the reason for the 
oil-for-food program. That is the reason in the draft that we 
have tried to find ways to increase the amount of money in the 
oil-for-food program to further reduce the ability of Saddam 
Hussein to pretend that the sanctions are directed against the 
Iraqi people. They are not. Saddam is the one who has not 
ordered the kinds of food and medicine that are allowed to be 
ordered, very much so, under the sanctions regime, under the 
oil-for-food program. A lot of the medical equipment and 
medicines that he has ordered are sitting in warehouses in 
Baghdad. They have not been distributed.
    There is a marked difference between the way that the oil-
for-food program is administered in northern Iraq in the areas 
that are not under Iraqi control, but are under U.N. control, 
and the way it is being administered in the south. I found this 
quite remarkable in my trip there where the people in the north 
express great satisfaction with the oil-for-food program. They 
would obviously like more in the oil-for-food program, which is 
exactly what this resolution attempts to do.
    I want to quickly add, though, that the effort to get more 
money into the oil-for-food program is coupled with a very 
strict escrow account management that does not permit any of 
Iraq's oil revenues to get into Saddam Hussein's hands. They 
all would be controlled through U.N. Security Council 
mechanisms.
    In terms of introduction of human rights inspectors, first 
let me say, yes, the draft does speak very forcefully to get 
the reinsertion of a disarmament verification regime back into 
Iraq.
    On human rights monitors, I would argue that we are already 
addressing that as much as we can through provision of finance 
to INDICT, an organization that is working very hard to compile 
and collect war crimes information against Saddam Hussein and 
the cronies in his leadership, and to monitor human rights 
abuses, of which there are far too many. It is an extremely 
tragic situation there.
    There is also money being provided through the ESF programs 
to other organizations to document and to try to find ways to 
resolve the situation in Halabja where the chemical weapons 
attack was conducted by Saddam 10 years ago. So, there are a 
variety of things in train that we would be very happy to brief 
you on in greater detail.
    Senator Wellstone. I will not followup because a note 
handed to me by a great staffer was that it is one thing about 
past abuses, but we would be talking about monitors on the 
ground to prevent future abuses, which is maybe the 
distinction.
    Rather than following up, because I do not want to run out 
of time, I want to ask you about a couple of New York Times 
reports about some of the bombing in northern Iraq. I am trying 
to figure out what the purpose of the bombing is, and I also 
want to know a little bit more about the civilian casualties. 
We are not getting a lot of public information. It is being 
provided by the Pentagon. I wonder whether you could spell out 
for us what are the strategic goals in carrying out these 
attacks, and do you believe that these bombings are having any 
effect at all on the stability of Saddam's regime. And can you 
give us any sense as to when this campaign would be concluded?
    Ms. Jones. What you are referring to is Operation Northern 
Watch in particular, but of course, there is also Operation 
Southern Watch, which were put in place through Security 
Council resolutions to prevent Saddam Hussein from using his 
air force to go after the Kurds in the north and the Iraqis in 
the south, mostly Shi'a. That has had a very good effect and 
continues to have a very good effect in the sense that it 
prevents Saddam from further depredations against the people in 
the north and the south.
    The fact of the matter is that the only times that allied 
aircraft target the anti-aircraft and other Iraqi defense 
capabilities in the north and the south is when they threaten 
the aircraft themselves. The goal is to take out the military 
equipment that is threatening allied aircraft and allied 
pilots. There is every effort made not to hit anything that 
could be part of the humanitarian infrastructure of Iraq and 
certainly to avoid civilian casualties. That is absolutely the 
goal.
    To answer the last part of your question, the protection of 
the no-fly zones will go on until there is regime change, I 
presume. There do not need to be attacks against the weapons 
that are threatening the aircraft if they no longer threaten 
the aircraft. It is that simple.
    Senator Wellstone. My last question. I will not do a 
followup so I can just stay within a reasonable time limit 
because I may not have a chance to ask this question of others. 
The administration has named seven groups that are eligible to 
receive U.S. assistance under the Iraq Liberation Act. This is 
just a question from an inquiring Senator so that I can learn 
more. Do each of these groups follow policies and practices 
that are consistent with U.S. democratic values and commitments 
to human rights? And if they were to take power, in your view 
what would be the prospects for forging a democratic Iraq that 
respects human rights? Can you give me some sense?
    Ms. Jones. Part of the criteria for designating the groups 
was that they would adhere to those principles. Certainly that 
is part of the discussion that the leadership of the INC--those 
groups are mostly represented in the INC and through the 
independents with whom Frank Ricciardone is working, with whom 
we are working. They are working on those kinds of principles. 
The idea that they have already articulated is for a 
representative government that would respect the human rights 
of all Iraqis, that would respect the political goals of all 
Iraqis, and that would be inclusive of all Iraqi groups, all 
Iraqi citizens, all parts of Iraq.
    Senator Wellstone. This would be consistent with our past 
experience with these groups in terms of commitment to 
democratic values and human rights?
    Ms. Jones. Yes, it is.
    Senator Wellstone. Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Wellstone.
    Secretary Jones, regarding northern Iraq, how firm is the 
U.S. commitment to protect northern Iraq? There appears to be a 
great deal of loosening of it from Saddam's hands, the 
possibility that the Iraqi National Congress could actually 
meet there, although you note maybe not the first time but the 
second time. How strong is the U.S. commitment to protect the 
north and its freedoms that it has? Would we put forward a no-
drive zone so that if Saddam starts moving columns north, we 
will stop them? Could you articulate U.S. policy on that?
    Ms. Jones. The commitment is a very strong one. This is, as 
I said in my opening remarks, a redline for the United States. 
As we have articulated it, if there is an attack against the 
Kurdish areas in the north, we will respond at a time and place 
of our choosing. We would like to leave that vague in public. 
It is a redline, as I say, that we are fully committed to. It 
is one that has been mentioned very frequently in the last week 
as we have had delegations from Mr. Barzani and Mr. Talabani, 
the two main Kurdish parties in the north, in Washington over 
the past week to discuss further reconciliation measures 
between the two of them in followup to the Washington Agreement 
and the Ankara process.
    One of the things that we are especially committed to in 
this whole context is the territorial integrity of Iraq, which 
is why we do not like to differentiate completely between the 
north and the south in that respect. The redlines are clear for 
both areas.
    Senator Brownback. I might submit to you that vagueness, if 
I were one of the Iraqi opposition people on the ground, would 
be hesitating to me if the U.S. policy is vague, a public 
policy of vagueness on what our response would be and we would 
respond at our choosing. I would encourage you to be far more 
clear with what U.S. policy and what U.S. response would be if 
we seek to stimulate that opposition in the north. We did not 
articulate much vagueness in Kosovo, and it emboldened people 
regardless of how one felt about that. I think the vagueness 
would limit me if I were in the opposition, particularly a 
public vagueness. Even if privately things are said 
differently, I would say I want to make sure that that is a 
commitment that I can count on before I am going to put my 
life, my family on the line.
    Ms. Jones. I would argue that Saddam knows very clearly 
that we are very committed to our redlines. He sees it every 
day or almost every day in terms of the redline related to the 
no-fly zones, and he would see it were he to cross any of the 
other redlines.
    Senator Brownback. Well, good.
    Secretary Jones, as always, I am impressed with your 
abilities from first meeting you in Almaty, Kazakhstan. I was 
impressed with you there and here.
    I just got back from the Sudan about 2 weeks ago, and just 
north of Yei in southern Sudan they have what they call Iraqi 
Hill where a number of Iraqi troops were killed in Sudan 
fighting for the northern government, the Khartoum Government, 
which is a terrorist government seeking expansion. Now, I did 
not investigate this, but that was what was noted to us, that 
this was actually Iraqi Hill. And I found it very interesting 
at that point.
    Thank you very much. Thank you for your skill and your 
diplomacy, and thank you for being here.
    Ms. Jones. Thank you, Mr. Chairman. Thank you, Senator 
Wellstone.
    Senator Brownback. We will call up the next panel for 
presentation, and included on that panel will be Mr. Ahmad 
Chalabi, the member of the Executive Presidency of the Iraqi 
National Congress; Dr. Patrick Clawson, director for research, 
Washington Institute for Near East Policy; and Ms. Rend Rahim 
Francke--I probably mispronounced that--executive director of 
the Iraq Foundation. They will be the next panel.
    Thank you all very much for joining us, and Mr. Chalabi, we 
look forward to your presentation.

STATEMENT OF AHMAD CHALABI, MEMBER, EXECUTIVE PRESIDENCY, IRAQI 
               NATIONAL CONGRESS, LONDON, ENGLAND

    Mr. Chalabi. Thank you, Senator. Thank you, Mr. Chairman. I 
am very pleased to be here today. It has been 15 months since I 
last had the honor to testify before your committee. I am proud 
to come before you again on behalf of the Iraqi National 
Congress, the voice of the Iraqi people. The Iraqi National 
Congress represents free Iraq and we are grateful for the help 
of the free people of the United States. We are particularly 
grateful for the assistance of the U.S. Senate and Congress. 
The Iraq Liberation Act, declaring United States support for 
removing the Iraqi dictatorship, has been a beacon to the Iraqi 
people, and we look forward to working with you closely on its 
implementation.
    The Iraqi National Congress calls upon the United States 
and its allies to recognize what is already fact: the United 
States and its allies are at war with Saddam's regime.
    Last summer it was proven that Saddam had ballistic missile 
warheads loaded with deadly VX nerve gas, an active biological 
weapons program, and the potential for nuclear weapons in less 
than a year. In August 1998, Saddam ended the last illusion of 
United Nations inspections as required under United Nations 
Security Council Resolution 687 (1991). In response, the 
Congress passed and the President signed Public Law 105-235 
declaring that the Government of Iraq is in material and 
unacceptable breach of its international obligations under the 
Gulf war cease-fire and empowering the President to take 
appropriate action in accordance with the Constitution and the 
relevant laws of the United States to bring Iraq into 
compliance. In finding that Saddam had broken the cease-fire 
and directing the President to enforce the terms of the cease-
fire, this joint resolution in effect stated that the Gulf war 
was not over.
    Indeed, since Operation Desert Fox over 6 months ago, a 
virtual state of war has existed between the United States and 
her allies and Saddam Hussein's regime. The Iraq Liberation Act 
provides for significant military assistance to the Iraqi 
National Congress to remove the regime headed by Saddam Hussein 
from power in Iraq and to promote a democratic government to 
replace that regime. On the 31st of October, the President 
signed the Iraq Liberation Act into law. On November 15, 
President Clinton announced that in response to Saddam's 
continued defiance of international law, that the United States 
would make the removal of Saddam's regime the centerpiece of 
U.S. policy toward Iraq. The Iraqi National Congress strongly 
welcomed this decision. On December 15, the United States began 
a military assault on Iraq that continues to this day. 
Operation Desert Fox and over 80 subsequent allied air attacks, 
using thousands of precision munitions under broad rules of 
engagement in the no-fly zones, have severely hurt Saddam's 
military infrastructure.
    Saddam considers this war. On the 5th of this month, Iraqi 
Foreign Minister Sahaf formally protested to the United Nations 
on behalf of Saddam that the Iraq Liberation Act was illegal 
and that relations with the Iraqi National Congress constituted 
aggression against a sovereign state.
    The United States continues to recognize Saddam and Sahaf 
and the rest of the gang as Iraq's Government. Neither the 
interests of the American people nor the Iraqi people will be 
served by the current suggestions in the United Nations 
Security Council to write one more resolution, to make one more 
deal with Saddam's gang. We do not need yet another resolution 
that Saddam will violate. What we need is bold action. We 
believe that the United States should take the following steps 
immediately.
    Protect the Iraqi people from Saddam's massive repression 
and ease their suffering through a large-scale program of 
direct humanitarian assistance that bypasses the regime. Saddam 
is violating the oil-for-food resolutions. He is twisting them 
to his advantage, and he will not willingly provide the Iraqi 
people with food because Saddam uses hunger and disease as 
weapons against the people of Iraq.
    Broaden the rules of engagement for U.S. aircraft enforcing 
the no-fly zones over much of Iraq to make all Saddam's 
military forces moving against the civilian Iraqis targets for 
the aircraft.
    Help the Iraqi National Congress to develop an alternative 
to the regime and assist us, including all the brave Iraqis 
fighting Saddam inside the country.
    The Iraqi people need protection from Saddam's 
depredations. That is why human rights monitors deployed all 
over the country under the auspices of the United Nations are 
very important. It is not sufficient for the campaign of INDICT 
to be supported for the cessation of human rights violations 
against the Iraqi people. Human rights monitors must be 
deployed.
    Saddam's behavior, since the passage of the Iraq Liberation 
Act, has been dictated by his preparations to deal with the 
consequences of the act. He has increased repression in all 
parts of the country because of his perception of the threat 
that he faces and his quest to avert danger. He has divided the 
country into four parts and appointed close members of his 
inner circle as military Governors with unlimited powers. He 
has massed troops against Iraqi Kurdistan in order to threaten 
the people of the north. Part of the reason for his massing of 
troops was the fact that the Kurdish parties, the Kurdistan 
Democratic Party and the Patriotic Union of Kurdistan, have 
participated in meetings of the INC Executive Council and have 
participated in the visit to Washington. They must not be 
penalized for taking the side against Saddam and being on the 
side of the United States.
    He has massed troops in the south also. He has assigned his 
son Qusay to lead a campaign of mass arrests and repression in 
the south while his secret service continues to attack Shi'a 
religious leaders. This culminated in the recent murder of the 
highly respected Grand Ayatollah Mohammed Al-Sadr inside Iraq 
where he was living and working inside Iraq. Hundreds of 
thousands of people were coming to Friday prayers, led by him, 
and Saddam considered that to be an unacceptable threat in the 
face of the existence of the Iraq Liberation Act.
    The spontaneous demonstrations that broke out all over Iraq 
after Ayatollah Sadr's murder were squashed with Saddam's 
customary brutality with hundreds of deaths in Baghdad and 
other cities in Iraq. In addition, over 1,000 political 
prisoners have been executed in the so-called prison cleansing 
campaign. Iraqis are dying now. It is not useful to say that 
any further aggressive moves against Saddam would get Iraqis 
killed because Saddam is killing Iraqis now.
    The rules of engagement for allied pilots over Iraq have 
been significantly broadened in the past year from simply 
intercepting aircraft in violation of the no-fly zones to 
targeting air defense and command and control facilities once 
Saddam threatens allied aircraft. We ask that the rules of 
engagement be further broadened to include units of Saddam's 
military that are being deployed against the Iraqi people. The 
current no-fly zone does not protect the Iraqi people from 
Saddam's armor and artillery, chemical weapons, and missile 
forces. This will enhance the protection of the Iraqi people 
while further diminishing Saddam's apparatus of control.
    U.S. officials have said that attacking Iraqi Kurdistan 
would lead to military action. We ask for this undertaking to 
be spelled out clearly. Saddam should know in no uncertain 
terms that he would be prevented from crossing the line into 
all liberated areas of Iraq in the north. Specifically, a 
statement would be made to warn against moving into all areas, 
including areas below the 36th parallel which are not part of 
the no-fly zones.
    Many brave Iraqis associated with the INC are resisting the 
dictatorship on the ground inside Iraq, particularly in the 
south. They are in contact with the Iraqi National Congress and 
they need support. They are looking to get equipment and 
training through the INC under the Iraq Liberation Act. Indeed, 
they need all kinds of support to resist the predatory 
dictatorship.
    With the assistance of the U.S. Government, the Iraqi 
National Congress has held four meetings of its Executive 
Council beginning with the meeting in Windsor, England on April 
7-8, which was attended by representatives of the Clinton 
administration and Congress. My colleagues and I were also very 
pleased to welcome your colleague, Senator Kerrey of Nebraska, 
who attended the meeting.
    At the Windsor meeting, the Executive Council elected a 
seven-member interim presidency to lead the INC until the 
expanded Iraqi National Assembly meeting in July elects a new 
leadership for the future. The Windsor meeting also reaffirmed 
the unity of the Iraqi opposition and all the members of the 
INC reaffirmed their commitments to the principles of 
democracy, pluralism, federalism, and respect for human rights.
    The Windsor meeting was followed up by a visit of an INC 
delegation to the United Nations. We have also been vigorous in 
reaching out to all Iraqis of all groups opposed to Saddam 
throughout the world. Also, an expanded delegation of the Iraqi 
opposition made a successful visit to Washington in May.
    With the assistance of the U.S. Government, we have 
reactivated our campaign to focus attention on the crimes of 
Saddam and to maintain his international isolation. Frank 
Ricciardone, the State Department's Special Coordinator for 
Transition in Iraq, continues to work tirelessly to help us in 
our quest to push forward the agenda of the united Iraqi 
opposition, and my colleagues and I commend his efforts. He 
already has had notable successes, to his credit, among the 
Iraqi opposition. Also, he has visited several countries in the 
region to explain U.S. policy.
    Unfortunately, the position of some regional States toward 
Saddam's regime remains ambiguous. We say to our neighbors in 
the region that we stand for the unity of Iraq while Saddam has 
effectively divided the country. We urge them to recognize that 
the suppressed talents and good will of the Iraqi people must 
be released from the tyranny of Saddam to ensure the peace and 
prosperity of the region. Most of our Arab neighbors enjoy very 
special relationships with the United States. They must not 
begrudge us such relations. We look to the U.S. to help the 
Iraqi people rid themselves from the scourge of Saddam and 
establish democracy in Iraq. Our neighbors have nothing to fear 
from a democratic Iraq.
    We have called for a plenary session of the Iraqi National 
Assembly in July. This body is the ultimate authority of the 
INC. The July meeting will expand the INC and elect leadership 
for the future. In the absence of firm security guarantees from 
the United States and its allies, we unfortunately are not able 
to hold this meeting in our first choice venue on Iraqi soil as 
we did in Salahuddin in 1992. Logistics were much more 
complicated then. The INC Executive Council has made the 
request to the Secretary of State to hold the INC National 
Assembly meeting in Washington. Similar requests have been made 
to a number of Arab and European governments.
    Kurdish reconciliation has been a fundamental step in the 
efforts to energize and unite the opposition. We commend the 
U.S. Government's role in brokering the Washington Agreement 
between the KDP and the PUK. We hope that the Washington 
Agreement will be implemented fully, and we commend Ambassador 
Beth Jones' leadership role in the current negotiations between 
the Kurdish parties.
    Mr. Chairman, as I said earlier, it is time for bold 
action. It is time to call Saddam to account for his war 
crimes, crimes against humanity, and genocide. We need the 
United States' support and other friends of the Iraqi people to 
act in the United Nations to convene a commission of inquiry 
into the crimes of Saddam's regime. Secretary of State 
Christopher told an INC delegation in April 1993 that the 
United States would support the creation of such a commission, 
and the Iraq Liberation Act addresses at length the indictment 
of Saddam Hussein and other war criminals in his regime. 
Perhaps the next session of the United Nations General Assembly 
in the autumn will be the appropriate place to pursue this. 
U.S. leadership on this issue is essential.
    We are pleased to note the United States' support of 
INDICT, the leading organization campaigning on this issue. The 
U.S. Congress appropriated funds for INDICT. To date, INDICT 
has not received funds, but we are told by the State Department 
that INDICT will be receiving funds before the end of the 
month.
    INDICT also is not encouraged to look into evidence of war 
crimes for fear of jeopardizing the future of this evidence in 
the forthcoming tribunals.
    We are encouraged by the statements of National Security 
Adviser Berger to our delegation in which he said that the 
United States is determined to help the Iraqi people remove 
Saddam and is working diligently to achieve this noble aim. We 
have had initial contacts with U.S. military officials to 
discuss the commencement of drawdown assistance to the INC 
under the Iraq Liberation Act. We look forward to the time when 
this materiel and training can be used by the forces opposing 
Saddam on the ground in Iraq. We recognize that there is an 
urgent need for training and we are ready to commence training 
immediately.
    The Iraqi National Congress recognizes that the problems of 
post-Saddam Iraq will be immense and complicated. But Iraq is a 
rich country both in oil, water, and talent and can stand on 
its own feet after the fall of the dictatorship. A significant 
part of the credibility of the INC lies in our ability to 
persuade the international community that we have plausible 
plans for dealing with problems of Iraq in the political, 
constitutional, economic, administrative, and security fields. 
We are working with Iraqi and international experts to develop 
and refine our plans in all these areas. We appreciate the 
assistance and encouragement that the United States has given 
us in these areas. However, development of the post-Saddam 
agenda is no substitute to an active program to replace the 
tyranny in Iraq. The Iraqi people are calling upon us to be in 
the forefront of the effort to liberate our country.
    Mr. Chairman, I appreciate this opportunity to testify 
before you again. I assure the U.S. Congress and the U.S. 
people of our gratitude for your support in our struggle to end 
the suffering of our people and to live in peace and freedom. 
Thank you.
    [The prepared statement of Mr. Chalabi follows:]

                  Prepared Statement of Ahmad Chalabi

    Thank you Mr. Chairman. I am very pleased to be here today.
    It has been fifteen months since I last had the honor to testify 
before the Foreign Relations Committee. I am proud to come before you 
again on behalf of the Iraqi National Congress, the voice of the Iraqi 
people. The Iraqi National Congress represents free Iraq and we are 
grateful for the help of the free people of the United States. We are 
particularly grateful for the assistance of the United States Senate 
and Congress. The Iraq Liberation Act, declaring United States' support 
for removing the Iraqi dictatorship, has been a beacon to the Iraqi 
people and we look forward to working with you closely on its 
implementation.
    The Iraqi National Congress calls upon the United States and its 
allies to recognize what is already fact: the United States and its 
allies are at war with Saddam's regime.
    Last summer it was proven that Saddam had ballistic missile 
warheads loaded with deadly VX nerve gas, an active biological weapons 
program, and the potential for nuclear weapons in less than a year. In 
August 1998, Saddam ended the last illusion of United Nations 
inspections as required under United Nations Security Council 
Resolution 687 (1991). In response, the Congress passed, and the 
President signed, Public Law 105-235 declaring that ``the Government of 
Iraq is in material and unacceptable breach of its international 
obligations'' under the Gulf War cease-fire and empowering the 
President to ``take appropriate action, in accordance with the 
Constitution and the relevant laws of the United States, to bring Iraq 
into compliance.'' In finding that Saddam had broken the cease-fire and 
directing the President to enforce the terms of the cease-fire this 
Joint Resolution in effect stated that the Gulf war was not over.
    Indeed, since Operation Desert Fox, over six months ago, a virtual 
state of war has existed between the United States and her allies, and 
Saddam's regime. The Iraq Liberation Act provides for significant 
military assistance to the Iraqi National Congress to ``remove the 
regime headed by Saddam Hussein from power in Iraq and to promote a 
democratic government to replace that regime.'' On the 31st of October 
the President signed the Iraq Liberation Act into law. On November 
15th, President Clinton announced that in response to Saddam's 
continued defiance of international law that the United States would 
make the removal of Saddam's regime the centerpiece of U.S. policy 
towards Iraq. The Iraqi National Congress strongly welcomed this 
decision. On December 15th, the United States began a military assault 
on Iraq that continues to this day. Operation Desert Fox and the over 
80 subsequent allied air-attacks using thousand of precision munitions 
under broad rules of engagement in the no-fly zones have severely hurt 
Saddam's military infrastructure.
    Saddam considers this war. On the fifth of this month, Iraqi 
Foreign Minister Sahaf formally protested to the United Nations on 
behalf of Saddam, that the Iraq Liberation Act was illegal and that 
relations with the Iraqi National Congress constituted ``aggression 
against a sovereign state.''
    The United States continues to recognize Saddam and Sahaf and the 
rest of the gang as Iraq's government. Neither the interests of neither 
the American nor the Iraqi people will be served by the current 
suggestions in the United Nations Security Council to write one more 
resolution, to make one more deal with Saddam's gang. We do not need 
yet another resolution that Saddam will violate. What we need is bold 
action. We believe that the United States should take the following 
steps immediately:

  --Protect the Iraqi people from Saddam's massive repression and ease 
        their suffering through a large-scale program of direct 
        humanitarian assistance that bypasses the regime.
  --Broaden the rules of engagement for U.S. aircraft enforcing the no-
        fly zones over much of Iraq to make all of Saddam's military 
        forces targets.
  --Help the Iraqi National Congress to develop an alternative to the 
        regime and assist us, including all the brave Iraqis fighting 
        Saddam inside the country.

    The Iraqi people need protection from Saddam's depredations. 
Saddam's behavior since the passage of the Iraq Liberation Act has been 
dictated by his preparations to deal with the consequences of the Act. 
He has increased repression in all parts of the country because of his 
perception of the threat he faces and his quest to avert danger. He has 
divided the country into four parts and appointed close members of his 
inner circle as military governors with unlimited powers. He has massed 
troops against Iraqi Kurdistan in order to threaten the people of the 
north. He has assigned his son Qusay to lead a campaign of mass arrests 
and repression in the south while his secret services continue to 
attack Shia religious leaders. This culminated in the recent murder of 
the highly respected Grand Ayatollah Mohammed Al-Sadr. The spontaneous 
demonstrations that broke out all over Iraq after Ayatollah Sadr's 
murder were squashed with Saddam's customary brutality with hundreds of 
deaths in Baghdad and other cities of Iraq. In addition, over a 
thousand political prisoners have been executed in the so-called 
``Prison Cleansing Campaign.''
    The rules of engagement for allied pilots over Iraq have been 
significantly broadened in the past year from simply intercepting 
aircraft in violation of the no-fly zones to targeting air defense and 
command and control facilities. We ask that the rules of engagement be 
further broadened to include units of Saddam's military that are being 
deployed against the Iraqi people. This will enhance protection of the 
Iraqi people while further diminishing Saddam's apparatus of control. 
U.S. officials have said that attacking Iraqi Kurdistan would lead to 
military action. We ask for this undertaking to be spelled out clearly. 
Saddam should know in no uncertain terms that he would be prevented 
from crossing the line into all liberated areas of Iraq in the north. 
Specifically, a statement would be made to warn against moving into 
areas below the 36th parallel which are not part of the no fly zones.
    Many brave Iraqis, associated with the INC, are resisting the 
dictatorship on the ground inside Iraq, particularly in the south. They 
are in contact with the Iraqi National Congress and they need support. 
They are looking to get equipment and training through the INC under 
the Iraq Liberation Act. Indeed they need all kinds of support to 
resist the predatory dictatorship.
    With the assistance of the U.S. Government, the Iraqi National 
Congress has held four meetings of its Executive Council beginning with 
the meeting in Windsor, England on April 7-8 which was attended by 
representatives of the Clinton Administration and the Congress. My 
colleagues and I were also very pleased to welcome your colleague 
Senator Kerrey of Nebraska. At the Windsor meeting, the Executive 
Council elected a seven-member interim presidency to lead the INC until 
the expanded Iraqi National Assembly meeting in July elects a new 
leadership. The Windsor meeting also reaffirmed the unity of the Iraqi 
opposition and all the members of the INC reaffirmed their commitments 
to the principles of democracy, pluralism, federalism and respect for 
human rights. The Windsor meeting was followed-up by the visit of an 
INC delegation to the United Nations. We have been vigorous in reaching 
out to Iraqis of all groups opposed Saddam throughout the world. Also, 
an expanded delegation of the Iraqi opposition made a successful visit 
to Washington in May.
    With the assistance of the U.S. Government we have reactivated our 
campaign to focus attention on the crimes of Saddam and to maintain his 
international isolation. Frank Ricciardone, the State Department's 
Special Coordinator for Transition in Iraq, continues to work 
tirelessly to help us in our quest to push forward the agenda of the 
united Iraqi opposition and my colleagues and I commend his efforts. He 
already has notable successes to his credit among the Iraqi opposition. 
Also, he has visited several countries in the region to explain U.S. 
policy.
    Unfortunately the position of some of the regional states towards 
Saddam's regime remains ambiguous. We say to our neighbors in the 
region that we stand for the unity of Iraq while Saddam has divided the 
country. We urge them to recognize that the suppressed talents and good 
will of the Iraqi people must be released from the tyranny of Saddam to 
ensure the peace and prosperity of the region. Most of our Arab 
neighbors enjoy very special relations with the United States, they 
must not begrudge us such relations. We look to the U.S. to help the 
Iraqi people rid themselves from the scourge of Saddam and establish 
democracy in Iraq. Our neighbors have nothing to fear from a democratic 
Iraq.
    We have called for a plenary session of the Iraqi National Assembly 
in July. This body is the ultimate authority of the INC. The July 
meeting will expand the INC and elect leadership for the future. In the 
absence of firm security guarantees from the United States and its 
allies, we, unfortunately, are not able to hold this meeting on Iraqi 
soil as we did in Salahuddin in 1992. The INC Executive Council has 
made a request to the Secretary of State to hold the meeting in 
Washington. Similar requests have been made to a number of Arab and 
European governments.
    Kurdish reconciliation has been a fundamental step in the efforts 
to energize and unite the opposition. We commend the U.S. Government's 
role in brokering the Washington Agreement between the KDP and the PUK. 
We hope that the Washington Agreement will be implemented fully and we 
commend Ambassador Beth Jones' leadership role in the current 
negotiations between the Kurdish parties.
    Mr. Chairman, as I said earlier it is time for bold action. It is 
time to call Saddam to account for his war crimes, crimes against 
humanity and genocide. We need the support of the United States and 
other friends of the Iraqi people to act in the United Nations to 
convene a commission of inquiry into the crimes of Saddam's regime. 
Secretary of State Christopher told an INC delegation in April 1993 
that the United States supports the creation of such a commission and 
the Iraq Liberation Act addresses at length the indictment of Saddam 
Hussein and other war criminals in his regime. Perhaps the next session 
of the UN General Assembly in the autumn will be the appropriate place 
to pursue this. U.S. leadership on this issue is essential. We are 
pleased to note the U.S. support of INDICT, the leading organization 
campaigning on this issue.
    We are encouraged by the statements of National Security Advisor 
Berger to our delegation in which he said that the United Sates is 
determined to help the Iraqi people remove Saddam and is working 
diligently to achieve this noble aim. We have had initial contacts with 
U.S. military officials to discuss the commencement of drawdown 
assistance to the INC under the Iraq Liberation Act. We look forward to 
the time when this materiel and training can be used by the forces 
opposing Saddam on the ground in Iraq. We recognize that there is an 
urgent need for training and we are ready to commence training 
immediately.
    The Iraqi National Congress recognizes that the problems of post-
Saddam Iraq will be immense and complicated. But Iraq is a rich country 
both in oil, water and talent and can stand on its own feet after the 
fall of the dictatorship. A significant part of the credibility of the 
INC lies in our ability to persuade the international community that we 
have plausible plans for dealing with the problems of Iraq in the 
political, constitutional, economic, administrative and security 
fields. We are working with Iraqi and international experts to develop 
and refine our plans in all those fields. We appreciate the assistance 
and encouragement that the U.S. has given us in these areas. However, 
development of the post-Saddam agenda is no substitute to an active 
program to replace the tyranny in Iraq. The Iraqi people are calling 
upon us to be in the forefront of the effort to liberate our country.
    Mr. Chairman, I appreciate this opportunity to testify before the 
Foreign Relations Committee again. I assure the U.S. Congress and the 
U.S. people of our gratitude for your support in our struggle to end 
the suffering of our people and to live in peace and freedom.

    Senator Brownback. Thank you, Mr. Chalabi, and thank you 
for your courage and your commitment and your hard work. You 
lay forward an aggressive agenda, and it is a very encouraging 
one to hear you articulate that agenda. I look forward to 
discussing some of that with you a bit further.
    Dr. Clawson, thank you for joining our committee and the 
floor is yours.

 STATEMENT OF DR. PATRICK CLAWSON, DIRECTOR FOR RESEARCH, THE 
   WASHINGTON INSTITUTE FOR NEAR EAST POLICY, WASHINGTON, DC

    Dr. Clawson. Thank you. It is an honor to be here with you 
today. I have submitted a statement for the record and, if you 
will permit me, I would like just to summarize that briefly.
    Senator Brownback. That will be just fine, and we will put 
your entire statement in the record. You are free to summarize 
as you see fit.
    Dr. Clawson. Thank you very much.
    After Congress passed the Iraq Liberation Act in 1998, the 
Clinton administration decided that regime change was a 
necessary goal rather than just a desirable aim. By publicly 
identifying regime change as a policy objective, the United 
States has put its prestige on the line. From now on, the world 
will use a simple test to judge the success or failure of U.S. 
policy toward Iraq, namely, is Saddam still in power?
    Therefore, the policy of promoting regime change is not one 
that should be done halfway. Success in this policy will depend 
upon the vigor with which the policy is pursued. Regime change 
is a realistic goal if, and only if, Washington puts itself 
behind this effort, but it is not realistic if Washington sits 
back to await others making it happen. The U.S. Government 
should, therefore, devote vigorous effort to regime change 
rather than presenting regime change as a long-term aim with 
the implication that in the short term little will be done to 
promote it.
    It is in this context that we should consider the role for 
the Iraqi opposition.
    Replacing Saddam requires harnessing the potential inherent 
in all the policy levers that the United States holds. That 
means that we must coordinate military action, covert 
operation, reducing Saddam's unsupervised oil income, as well 
as support for the opposition. No one of these policies by 
itself is sufficient to achieve the objective of regime change. 
But taken together, the synergy among them creates the best 
conditions for the overthrow of Saddam Hussein, as well as 
reinforcing the containment of Iraq.
    U.S. military action can facilitate regime change, 
especially when it targets the regime's internal security 
apparatus, because that apparatus is the main obstacle to 
overthrowing Saddam.
    Covert action can diminish Saddam's image in the eyes of 
his supporters, exacerbate strained relations between Saddam's 
inner circle and the military, and it can stir up popular 
discontent against the regime.
    Reducing Iraq's unsupervised oil income, which amounts to 
several hundred million dollars a year, cuts into Saddam's 
ability to buy loyalty.
    But it is support for the opposition which is the clearest 
expression of America's commitment to regime change. Such 
support, especially when it is given publicly and endorsed by 
top officials, fosters the impression that the tide is running 
against Saddam Hussein. Only when Washington demonstrates its 
high level support for the opposition can it effectively lobby 
regional governments to do the same. The more the United States 
supports the opposition, the more regional governments will be 
confident that Saddam will, in fact, go, and therefore they can 
assist the opposition without facing eventual Iraqi 
retaliation.
    Some who would strictly limit U.S. support for the 
opposition belittle its chances of accomplishing much. To be 
sure, the opposition is unlikely to defeat Saddam's forces in 
the field. But that is largely irrelevant. The issue is what 
must be done to crack the aura of invincibility around Saddam 
and his repressive apparatus. If Saddam's security 
organizations are spending their time worrying about the 
opposition, they will have fewer resources to repress outbreaks 
of the seething popular discontent, and that will make more 
likely opposition success either through a coup or through 
uprisings.
    If I may, let me address some specific measures which might 
be taken to increase support for the opposition.
    First, over the last 6 months, the United States has 
stepped up its support for the opposition, but the support 
remains low key and a secondary aspect of our Iraq policy. A 
good indicator of where the opposition fits into overall U.S. 
Iraq policy is to see how the opposition leaders were treated 
during their recent visit to Washington, in comparison to their 
reception 6 years ago in April 1993. Six years ago, the 
opposition leaders saw the Vice President in the White House. 
This time, when the opposition had been broadened to include 
monarchists and prominent Iraqi Sunnis like former Foreign 
Minister Adnan Pacachi, the opposition leaders saw the 
Secretary of State, even though the administration had for 
months been telling the opposition that the more broadly they 
united, the higher the U.S. officials who would see them. This 
distinction between seeing the Secretary of State and seeing 
the Vice President matters to Saddam, to Middle Eastern 
countries, and to the Arab public. It will be interesting to 
see whether President Clinton sends greetings to the upcoming 
meeting of the Iraqi National Assembly, and if so, how warm and 
how specific those greetings will be.
    Second, on the operational front, the opposition has been 
unsuccessfully asking the United States to publicly commit 
itself to strict enforcement of the existing U.N. Security 
Council resolutions, especially U.N. Security Council 
Resolution 949 which authorizes use of force if Iraq ``takes 
any action to enhance its military capability in southern 
Iraq.'' This is the so-called no-drive zone resolution. In 
fact, the United States has rarely used the authority granted 
by this resolution to hit at the tanks and other equipment that 
Saddam has added to his forces in the south for the purpose of 
hitting the opposition.
    Third, the Clinton administration has announced that it 
will begin using the drawdown authority contained in the Iraq 
Liberation Act. Throughout the Middle East, not least of all in 
Iraq, close attention will be paid to what kind of assistance 
is provided under the drawdown program. Assistant Secretary 
Indyk has said, ``to arm the Iraqi opposition is premature.'' 
Let us define a road map to maturity. The administration should 
approach the opposition to develop a plan that includes 
specific steps that each side will take to permit U.S. military 
aid so that the opposition can expand the scope of its ongoing 
military operations.
    Next, there is the issue of what kind of non-lethal 
equipment to give the opposition, specifically whether the 
United States will provide what, in essence, are relief 
supplies or whether the United States will provide equipment 
designed to make the opposition more dangerous to Saddam. A 
good barometer here is how much communication equipment and 
training is included. Better communication equipment will let 
the opposition report in real time on what is happening in 
Iraq, and that could allow the opposition to identify when 
Saddam is moving reinforcements into the no-drive zone or the 
Kurdish areas, facilitating U.S. retaliation. Furthermore, the 
ability to communicate and coordinate between different regions 
and different cities could allow the news of unrest in one city 
to spread elsewhere, increasing the prospect that the seething 
discontent will erupt in riots.
    In conclusion, President Clinton in his December speech to 
the Nation said that the United States would support the 
opposition ``prudently and effectively.'' Well, what is prudent 
and effective is to put the full weight of the U.S. Government 
behind that policy to which we have committed our prestige, 
namely, regime change. Integrating vigorous support for the 
opposition with well planned military action, covert 
operations, and reduction in oil income will increase the 
prospects for ending Saddam Hussein's rule soon. Plus, it will 
bolster the containment of Iraq. The support for the opposition 
should steadily increase as the opposition matures, with the 
United States always pushing the process forward rather than 
lagging behind.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Clawson follows:]

               Prepared Statement of Dr. Patrick Clawson

                   what role for the iraqi opposition
    While NATO aircraft have been bombing Yugoslavia, American combat 
aircrews have also been engaged in another conflict, namely, a quiet 
low-intensity war against Iraq. The differences between the two 
theaters are many, not the least of which is the ultimate American 
goal. The United States appears ready to live with Slobodan Milosevic, 
whereas U.S. policy is now that Saddam Husayn must go. It took a long 
time to come to this determination. Only after Congress passed the Iraq 
Liberation Act of 1998 did the Clinton administration decide that 
regime change is necessary, rather than just desirable.
    Regime change is no easy goal; the prospects for success are 
uncertain. However, by publicly identifying regime change as a policy 
objective, the United States has already put its prestige on the line. 
From now on, the world will use a simple test to judge the success or 
failure of U.S. policy towards Iraq, namely, is Saddam still in power? 
Saddam has already outlasted one U.S. president (George Bush); it would 
not serve U.S. interests well if he outlasted another. The policy of 
promoting regime change is not one that should be done half-way: it 
should either be quietly buried or be put at the center of all U.S. 
actions towards Iraq. And the simple fact is that success depends upon 
the vigor with which the policy is pursued: regime change is a 
realistic goal if Washington puts itself behind the effort, but it is 
not realistic if Washington sits back to await others making it happen. 
The U.S. government should therefore devote vigorous effort to regime 
change, rather than presenting regime change as a long-term aim--with 
the implication that in the short run, little will be done to promote 
it.
    It is in this context that we should consider the role for the 
Iraqi opposition. Some see support for the opposition as the only 
element necessary to achieve success in Iraq. This approach is 
unrealistic. The opposition is unlikely anytime soon to create a 
military force capable of defeating Saddam Husayn, even if supported 
with American air power. Others see support of the opposition primarily 
as a way to strengthen the containment of Iraq--limiting its ability to 
threaten its neighbors and to develop weapons of mass destruction. This 
approach is insufficiently ambitious, and it does not acknowledge the 
need to take risks to change the regime in Baghdad before Saddam 
rebuilds his weapons of mass destruction or containment collapses.
      supporting the opposition as part of a multi-faceted policy
    Replacing Saddam requires harnessing the potential inherent in the 
four principal policy levers the United States holds--military action, 
covert operations, reducing Saddam's unsupervised oil income, and 
support for the opposition. No one of these policies by itself is 
sufficient to achieve the objective of regime change. Taken together, 
however, synergy among them creates the best conditions for the 
overthrow of Saddam Husayn, as well as reinforcing the containment of 
Iraq.
    U.S. military action can facilitate regime change, especially when 
it targets the regime's internal security apparatus. That apparatus is 
the main obstacle to overthrowing Saddam Husayn; there is no shortage 
of potential coup plotters or rebels. An air campaign that disrupts the 
key security organizations communications and forces them to focus on 
their own survival--and not that of the regime--increases the chances 
that a coup or uprising will succeed. Moreover, new strikes might cause 
Saddam to lash out verbally against Arab governments and Turkey (as he 
did after Desert Fox), deepening his political isolation, while 
reducing Iraq's ability to militarily threaten its neighbors--thereby 
bolstering containment.
    Covert action (with an emphasis on psychological operations) could 
diminish Saddam's image in the eyes of his supporters, exacerbate 
already strained relations between Saddam Husayn's inner circle and the 
military, and stir up popular discontent against the regime. These 
could lay the ground-work for a coup or uprising. At the very least, 
these efforts would keep Saddam on the defensive and force him to 
divert assets to deal with internal security, leaving fewer resources 
available for clandestine technology procurement or trouble-making 
elsewhere. This will also bolster containment.
    Reducing Iraq's unsupervised oil income--amounting to several 
hundred million dollars a year--cuts into Saddam's ability to buy 
loyalty. Financial hardship could aggravate existing tensions among the 
various Sunni tribal groups that form the bedrock of Saddam's power 
base and foment unrest among these elements. The flow of unsupervised 
income could be cut by renewed efforts to halt illicit Iraqi oil sales 
via Syria and Turkey, to wean Jordan off Iraqi oil, and to stop 
kickback schemes under the ``oil for food'' program. Less unsupervised 
oil income also means less money for illicit arms purchases, which 
reinforces containment.
    Support for the opposition is the clearest expression of America's 
commitment to regime change. Such support--especially when given 
publicly and endorsed by top officials--fosters the impression that the 
tide is turning against Saddam. It also undercuts the conspiratorial 
view in parts of the Arab world that the United States really wants a 
weakened Saddam Husayn to remain in power. Only when Washington 
demonstrates its high-level support for the opposition can it 
effectively lobby regional governments to do the same. The more the 
United States supports the opposition, the more regional governments 
will be confident that Saddam will in fact go and that therefore they 
can assist the opposition without facing eventual Iraqi retaliation. 
Plus, regional governments are more likely to support actions to 
tighten the containment of Iraq if they need not worry that Saddam will 
be around to exact revenge.
    Some who would strictly limit U.S. support for the opposition 
belittle its chances of accomplishing much. To be sure, the opposition 
is unlikely to defeat Saddam's forces in the field. But that is largely 
irrelevant. The issue is what must be done to crack the aura of 
invincibility around Saddam and his repressive apparatus. If Saddam's 
security organizations are spending their time worrying about the 
opposition, they will have fewer resources to repress outbreaks of the 
seething popular discontent. If emboldened protestors began to act on a 
wide scale, an active opposition could catalyze and coordinate an 
uprising, making what otherwise would be a riot into a regime-
threatening rebellion. Similarly, the busier that Saddam's security 
organizations are chasing the organized opposition and spontaneous 
protestors, the less they can do to detect and stop coup plotters. Plus 
containment is strengthened when Saddam diverts time and resources from 
the regular military to deal with the opposition--either because the 
opposition is successful or because the loud U.S. support for the 
opposition makes Saddam afraid.
        specific measures to increase support for the opposition
    Over the last six months, the United States has stepped up its 
support for the opposition, but the support remains low key and a 
secondary aspect of U.S. Iraqi policy. A good indicator of where 
opposition support fits into overall U.S. Iraqi policy is how the 
opposition leaders were treated during their recent visit to Washington 
compared to their reception in April 1993. Six years ago, the 
opposition leaders saw the Vice-President in the White House. This 
time, when the opposition had been broadened to include monarchists and 
prominent Sunnis like ex-Foreign Minister Adnan Pacachi, the opposition 
leaders saw the Secretary of State--even though the administration had 
for months been telling the opposition that the more broadly they 
united, the higher the U.S. officials who would see them. These 
distinctions matter to Saddam, to Middle East countries, and to the 
Arab public. It will be interesting to see whether President Clinton 
sends greetings to the upcoming meeting of the opposition Iraqi 
National Assembly, and if so how, warm will they be.
    Similarly, on the operational front, the opposition has been 
unsuccessfully asking the United States to publicly commit itself to 
strict enforcement of the existing UN Security Council (UNSC) 
Resolutions, especially UNSC Resolution 949 which authorizes use of 
force if Iraq ``takes any action to enhance its military capacity in 
southern Iraq''--the so-called ``no-drive zone'' resolution. In fact, 
the United States has rarely used the authority granted by this 
resolution to hit at the tanks and other equipment Saddam has added to 
his forces in the south for the purpose of hitting the opposition.
    In the north, the Kurdish groups want to know what President 
Clinton meant when he said that we ``remain ready to use [force] if 
Saddam moves against the Kurds.'' Specifically, the Kurdish groups want 
a guarantee that America will retaliate if Saddam attacks the Kurds in 
retaliation for the opposition National Assembly meeting in the north.
    The Clinton administration has announced that it will begin using 
the $97 million in drawdown authority contained in the Iraq Liberation 
Act. Throughout the Middle East, not least of all in Iraq, close 
attention will be paid to what kind of assistance is provided under the 
drawdown program. Assistant Secretary Indyk has said, ``to arm the 
Iraqi opposition . . . is premature.'' Let us define a roadmap to 
``maturity.'' Will the administration approach the opposition to 
identify what must be done before arms distribution is appropriate--to 
develop a plan that includes specific steps each side will take to 
permit U.S. military aid so that the opposition can expand the scope of 
its ongoing military operations?
    And in the meantime, there is the issue of what kind of non-lethal 
equipment to give the opposition, that is, whether to provide what are 
in essence relief supplies or instead equipment designed to make the 
opposition more dangerous to Saddam. A good barometer is how much 
communication equipment and training is included. Better communications 
would let the opposition report in real time on about what is happening 
in Iraq. The opposition could then identify when Saddam is moving 
reinforcements into the no-drive zone or the Kurdish area, facilitating 
U.S. retaliation. The ability to communicate and coordinate between 
different regions and cities could allow the news of unrest in one town 
to spark unrest elsewhere, increasing the prospect that the seething 
discontent will erupt in riots.
    In sum, what is ``prudent and effective''--the words President 
Clinton used in his December speech to the nation to describe how 
America will support the opposition--is to put the full weight of the 
U.S. government behind that policy to which we have committed our 
prestige, namely, regime change. Integrating vigorous support for the 
opposition with well planned military action, covert operations, and 
reductions in illegal oil income will increase the prospects for ending 
Saddam Husayn's rule soon, plus it will also bolster containment. The 
support for the opposition should steadily increase as the opposition 
matures, with the United States always pushing the process forward 
rather than lagging behind.

    Senator Brownback. Thank you, Dr. Clawson. That was an 
excellent statement and I think, unfortunately, an accurate 
analysis from my perspective. It seems to me that we need to be 
far more aggressive and far more specific and we know how to do 
that. Witness the recent actions in Kosovo. We know how to be 
aggressive and specific. And I hope that we can move the 
administration toward that position here because I agree with 
you as well that our prestige is on the line.
    And you have got a regime that is very troubling to a 
number of neighbors in this area. They do not want to see this 
regime, and it is threatening to those neighbors far in excess 
of what we see in some other regions of the world. So, this is 
an important policy issue for the United States and on a broad 
basis it is an important policy issue. So, thanks for your 
testimony.
    Ms. Francke. I hope I pronounced that correctly. Thank you 
very much for joining us. We can take your full statement in 
the record. If you would like to summarize, we would be happy 
to receive it that way as well.

   STATEMENT OF REND RAHIM FRANCKE, EXECUTIVE DIRECTOR, IRAQ 
                   FOUNDATION, WASHINGTON, DC

    Ms. Francke. Thank you, Mr. Chairman. I did, in fact, put a 
statement for the record, and I will summarize and highlight 
some points.
    I would like to give a statement that gives you my 
perception of the dynamics of the Iraqi opposition because I 
believe that that is important in any kind of decisionmaking 
that we are going to take.
    Mr. Chairman, earlier this month, the official Iraqi media 
offered a startling insight into the situation in Iraq. The 
media announced that Saddam Hussein had met with senior Ba'ath 
Party and security officials in the southern province of Basra 
to urge them to restore the regime's control of the city. In 
statements that were made public in the media, Saddam called on 
his henchmen to ``spare no effort in thwarting the plans of our 
enemies.'' He exhorted them to ``confront the influence of 
hostile information,'' which Saddam described as ``greater than 
the influence of bombs.'' And he also stressed the importance 
of ``psychological preparation before entering the next 
confrontation.''
    Saddam was really talking not about an external threat, an 
external foe. He was talking about the internal opposition in 
southern Iraq that has made the situation in that region very 
tenuous for the regime. It was a rare admission by Saddam of 
the threat posed by the internal opposition and a rare display 
of his fears. It is my assessment that the situation in Iraq in 
general is far more explosive and volatile now than it has been 
since March 1991.
    Since the twin blows of the Iraq Liberation Act and Desert 
Fox, Saddam's behavior has become more desperate and erratic 
and has manifested in increased internal repression. This 
internal repression has, in turn, triggered a response from the 
population that has been steady and persistent since January.
    What I have noted is that since the beginning of the year, 
the resistance to the regime has been consistent, continuous, 
and striking in its frequency and its tenacity. It is no longer 
in isolated pockets in the southern marshes, and it is no 
longer carried out by cross-border operations as it was from 
1991 until early this year. I believe there has been a 
qualitative change in the nature of this opposition in the 
center and in the south of Iraq.
    I am also struck by the geographic spread of the opposition 
and by its spread through a very broad social spectrum of Iraqi 
society. I would like to give you a few examples.
    Dr. Chalabi commented on the spontaneous eruption of 
demonstrations when the senior cleric Al-Sadr was assassinated 
by the regime in February. The demonstrations and the 
confrontations with the regime in consequence of that 
assassination really went on for an entire month, and I do not 
believe abated until late in March.
    But in addition, in May a clandestine military group, 
calling itself the Secret Organization of Iraqi Army Officers-
General Command, took responsibility for attacks in Baghdad 
against buildings belonging to the secret services of the Iraqi 
regime and took responsibility for the deaths of secret service 
officers.
    On June 14, a car bomb exploded in a Baghdad neighborhood. 
This in itself is not unusual, but what was unusual was the 
fact that the bomb exploded in a solidly middle class 
neighborhood with a diverse population of Sunnis, Shi'a, 
Christians, and even foreigners.
    Back in March, a group of active and retired army officers 
from some of the largest Sunni tribes in Iraq were plotting a 
revolt centered in the northern city of Kirkuk. The plot was 
foiled and the officers were executed.
    Thus, it seems to me that the opposition has both spread 
geographically, it has penetrated into different social 
segments of Iraqi society, and it has been continuous and has 
been sustained.
    The question is, does this internal opposition mean that a 
military coup or a popular uprising is about to overturn the 
regime? Unfortunately, I do not believe so.
    I want to take the military coup scenario first and say 
that I believe the odds are overwhelming against a military 
coup. Since 1991, there have been at least six verified 
military plots and rumors of more. In every case, the plot has 
been uncovered, the officer has been seized, and there have 
been hundreds of executions as a result of the failure of these 
plots.
    It is virtually impossible to engineer a covert plan in 
Iraq that can mature, gather momentum, and proceed to a 
successful coup without being uncovered by Saddam and killed in 
its early stages. Indeed, I would like to add that I doubt any 
military faction can seize and hold onto power for more than a 
few months in Iraq before being challenged by a rival faction 
because of the fragmentation of the Iraqi army and because of 
its division into regionalism and clan affiliations.
    Coming to a popular uprising, I believe the obstacles 
facing that were demonstrated in March 1991, and I do not 
believe very much has changed. The civilian resistance in the 
south and center of the country is geographically and 
operationally disconnected. Communications within the region 
where the resistance operates are difficult and the leadership 
is dispersed. The resistance lacks a unified command and an 
overarching political framework. As a result, although we see 
increased activity, persistent activity, and bolder activity, 
these activities are tactical rather than strategic. While this 
type of resistance can debilitate the regime and sap its 
resources, it lacks the concentrated and directed force to deal 
a final blow.
    In essence, there are three elements to the opposition 
right now. We have an internal civilian resistance that engages 
in open confrontation with the regime at great cost, but which 
lacks organizational resources. We have dissident military 
groups that repeatedly attempt covert coups, but fail and get 
executed. And we have an external opposition. And I would like 
to emphasize that I use this as a short term to imply the 
opposition which is outside the control of Saddam's regime 
either in northern Iraq or outside the country altogether. This 
external opposition has had an uneven progress, but it 
represents a wide cross section of Iraqi society and has 
organizational potential.
    The unfortunate thing is that these three elements are not 
currently integrated, and yet they are interdependent and they 
are complementary. And their integration is essential in my 
belief to a successful effort against Saddam's regime. We need 
to devise a strategy and support a strategy that knits these 
strands together in a syncretic combination. A successful 
challenge to Saddam requires, first, an opposition movement 
with organizational capability, a unified strategy, and a 
political vision. Second, it needs to include military and 
civilian forces inside Iraq as part of that overall strategy. 
And third, it requires a program that depends primarily on 
overt activity and can capitalize overtly on the regime's 
vulnerabilities and act as a magnet for Iraqis. Mounting such a 
challenge requires much greater energy and boldness than an 
overnight military coup, but I believe it is the only viable 
strategy for challenging Saddam successfully.
    Furthermore, I would add one indispensable element. A 
unified Iraqi opposition that can act as this magnet, as this 
organizational force requires a presence and an operation 
inside Iraq but outside Saddam's control. Again, I believe this 
is an indispensable component of an integrated strategic 
solution. It is very well to speak of an external opposition 
that is the voice of the inside opposition, that reflects the 
aspirations of the Iraqi people, but I do not think this is 
enough. I think the external opposition which is currently 
external has to be internalized because this is the framework 
that can bring together the disparate forces that are currently 
working in Iraq but working without any organization and 
without coordination. This is the opposition that has to 
provide that coordinational framework.
    For example, between 1992 and 1995, the Iraqi National 
Congress, based in Iraqi Kurdistan, was able to establish 
contacts with dissidents in government-controlled areas and 
have the potential to provide such a political framework for 
the forces actually confronting the regime. That experience, 
while imperfect and not fully developed, can serve as a useful 
model for the future.
    I believe the ingredients for success in Iraq are there. 
They need to be assembled. We have made great steps forward. 
The Iraq Liberation Act is a step forward. The revival of the 
Iraqi opposition is a step forward, and the efforts of the 
administration to bring the Kurdish parties together to normal 
relations is an enormous step forward. It is important that 
this momentum that has been established be maintained and 
developed. What concerns me is that we may lose the momentum, 
and I am further concerned that in spite of these good steps, 
we still do not have a conception of the process of change in 
Iraq. We are doing disparate things, all of which are good, but 
we are not pulling them into a unified whole.
    Finally, I want to add that all these steps have addressed 
the needs of the external opposition and not the needs of the 
internal opposition, that which is functioning inside Iraq. I 
will be very brief. The internal opposition itself needs a lot 
of support because in the end that is the opposition that is 
going to do the work, and that is the one that needs the 
assistance.
    I am often asked these following questions by people who 
have contacts with the inside.
    Will the United States support the resistance groups inside 
Iraq?
    Will the United States protect territory liberated from 
Saddam's control in the south and the center of the country?
    Why is the United States silent on providing real 
protection for Iraqis in the south and the center who are 
themselves being killed by the regime's paramilitary groups 
every day?
    These are important questions. I do not think they are 
superfluous because the way we address these questions really 
is going to determine the way we envisage the process of change 
in Iraq. We have to look at these questions very carefully and 
answer them squarely because they are going to determine our 
future actions on Iraq.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Francke follows:]

                Prepared Statement of Rend Rahim Francke

    Mr. Chairman, thank you for the opportunity to speak about the 
situation in Iraq. I speak in my personal capacity, and not in my 
capacity as director of the Iraq Foundation.

    1. The situation in Iraq today is closer to a boiling point that 
ever since March 1991.
    2. Classic modes of change, such as a sudden military coup, are 
unlikely to succeed.
    3. The United States can seize the opportunity and help a process 
of change that can lead democratization in Iraq.

    Mr. Chairman, earlier this month, the official Iraqi media offered 
a startling insight into the situation in Iraq. The media announced 
that Saddam Hussein had met with senior Ba'th Party and security 
officials in the southern province of Basra to urge them to restore the 
regime's control of the city. In statements that were made public, 
Saddam called on his henchmen to ``spare no effort in thwarting the 
plans of our enemies.'' He exhorted them to ``confront the influence of 
hostile information,'' which Saddam described as ``greater than the 
influence of bombs.'' He also stressed the importance of 
``psychological preparation before entering the next 
confrontation.''\1\
---------------------------------------------------------------------------
    \1\ From Al-Hayat, June 18, 1999. See translation on 
www.iraqfoundation.org
---------------------------------------------------------------------------
    Rarely before has Saddam admitted the threat posed by the internal 
opposition, or displayed his fear, or suggested that his regime's 
control was shaky. It was an unprecedented public admission of weakness 
from a man who knows he is sinking.
    Since the twin blows of the Iraq Liberation Act and Desert Fox, 
Saddam's behavior has been more desperate and his internal repression 
even more brutal. Simultaneously, since January this year, Iraq has 
seen a surge of resistance activity throughout the country, involving 
increasing numbers of people across the social-political spectrum.
    Opposition to Saddam's regime has been going on since the failure 
of the uprising in March 1991. However, in January this year, and in 
response to a particularly virulent campaign of terror in the fall, the 
nature of opposition activity changed. Resistance activity is no longer 
sporadic, confined to pockets in the southern marshes or carried out by 
cross-border commandos, as it has been for several years. On the 
contrary, today it is continuous and sustained, and striking in its 
frequency, tenacity and boldness. Moreover, it has spread 
geographically and across the social spectrum. This is an entirely new 
development, and needs to be noted and evaluated.
    In February this year, Saddam made the mistake of assassinating a 
prominent Shi'a cleric. Cities in southern Iraq, as well as 
neighborhoods in Baghdad, erupted into massive protests and armed 
confrontations with Saddam's paramilitary. Since then, resistance 
fighters have fought government troops daily, dissidents have attacked 
government buildings, and there have been widespread incidents of civil 
defiance.
    The dissent is not confined to the south or to the Shi'a 
population. In March, a group of active and retired army officers from 
some of the largest Sunni tribes in Iraq were plotting a revolt 
centered in the northern city of Kirkuk. The plot was foiled and the 
officers were executed.
    In May, a clandestine military group calling itself ``the Secret 
Organization of Iraqi Army officers-General Command'' took 
responsibility for attacks in Baghdad against buildings belonging to 
the secret services.
    On June 14, a car bomb exploded in a Baghdad neighborhood--not 
itself an unusual event. What was unusual was the fact that the bomb 
exploded in a solidly middle class neighborhood with a diverse 
population of Sunnis, Shi'a, Christians and foreigners. There are 
reports that the bomb exploded near a Republican Guard command post.
    The situation in Iraq is more volatile now that it has been since 
March 1991. The Iraqi people are resisting Saddam's rule everyday 
throughout the country, without external help and at enormous cost to 
their lives and the lives of their families. Thousands of men and women 
have died fighting or have been executed. The regime has razed 
villages, deported communities, and confiscated property.
    Does this widespread and sustained dissent mean that a military 
coup or a popular uprising is about to overturn the regime? I don't 
believe so.
    The odds are overwhelming against a military coup. Since 1991, 
there have been at least six verified military plots, and rumors of 
many more. In every case, the plot was uncovered in its embryonic stage 
through a ubiquitous system of intelligence and security organs, or 
through sheer fear. Hundreds of officers are known to have been 
executed as a result--officers from the army, the Republican Guard, the 
air force, and even the Special Republican Guard closest to the 
presidency.
    It is virtually impossible to engineer a covert plan that can 
mature, gather momentum and proceed to a successful coup without being 
uncovered by Saddam and killed in its early stages. In any case, the 
Iraqi military is no longer a cohesive institutions with an 
acknowledged hierarchy, but is riddled with factionalism. Indeed, it is 
doubtful that any military faction can seize and hold on to power for 
more than a few months before being challenged by a rival faction.
    The obstacles facing a popular uprising were demonstrated in March 
1991. The civilian resistance in the south and center of the country is 
geographically and operationally disconnected. Communications within 
the region are difficult and the leadership is dispersed. The 
resistance lacks a unified command and an overarching political 
framework. As a result, its activities are tactical rather than 
strategic. While this type of resistance can debilitate the regime and 
sap its resources, it lacks the concentrated and directed force to deal 
a final blow. Thus Saddam's regime survives in Iraq not because of its 
inherent strength but because of the organizational weakness of the 
opposition.
    There are three elements to the opposition:

  1. An internal civilian resistance that engages in open confrontation 
        with the regime at great cost, but lacks organization.
  2. Dissident military groups that repeatedly attempt covert coups, 
        but fail and get executed.
  3. An ``external opposition,'' which is outside the regime's control 
        in Kurdistan or in a foreign country, that has had an uneven 
        progress but represents a wide cross-section of Iraqi society 
        and has organizational potential.

    At present these elements are not integrated, and yet they are 
interdependent and complementary, and their integration is essential to 
a successful effort against Saddam's regime. We need to devise a 
strategy to knit these three strands together in a syncretic 
combination. A successful challenge to Saddam Hussein requires, first, 
an opposition movement with organizational capability and a unified 
strategy; second, inclusion of military and civilian forces inside Iraq 
as part of this strategy; third, an overt program that can capitalize 
on the regime's vulnerabilities and act as a magnet for Iraqis. 
Mounting such a challenge demands greater energy and boldness than an 
overnight military coup, but I believe it is the only viable strategy 
for effecting change in Iraq.
    A unified Iraqi opposition that operates inside Iraq but outside 
Saddam's control is an indispensable component of an integrated 
strategic solution because it can serve as the political and 
organizational framework for confronting the regime of Saddam Hussein. 
To be effective, such an opposition needs a credible presence inside 
Iraq, whether in Iraqi Kurdistan or other region of the country. For 
example, between 1992 and 1995, the Iraqi National Congress, based in 
Iraqi Kurdistan, was able to establish contacts with dissidents in 
government controlled areas and had the potential to provide such a 
political framework for the forces confronting the regime. That 
experience, while imperfect and not fully developed, can serve as a 
useful model. Clearly, the closer the organizational base is to the 
forces on the ground, the more effective it will be.
    The ingredients for change are gathered in Iraq but they need to be 
assembled. It is in the interest of the United States to help in that 
process by strengthening and supporting the Iraqi opposition inside and 
outside Iraq. The Iraqi situation was essentially frozen from 1996 to 
1998, but there have been several welcome advances in the past twelve 
months.
    The Iraq Liberation Act has had a strong impact on the Iraqi 
situation, signaling to Iraqis an explicit American backing for an end 
to Saddam's dictatorship and open support for the Iraqi democracy 
movement. The Iraqi opposition, stagnant since Saddam's invasion of 
Iraqi Kurdistan in August 1996, has revived and is beginning to 
coalesce for future action. There is still some way to go in re-
structuring and expanding the opposition umbrella, but I believe this 
process can be successful. Finally, the Kurdish parties are being 
encouraged by the U.S. Administration to restore normal relations and 
conditions to the northern region under their control and participate 
as full-fledged partners in the Iraqi opposition.
    But the momentum established by these steps has to be maintained 
and developed with more political, diplomatic and logistical support 
from the U.S. If the momentum slackens, there will be renewed 
disappointment and a return to stagnation, precisely at a time when the 
internal situation in Iraq is critical and requires resolute movement.
    Moreover, these steps have only targeted the ``external 
opposition.'' Support is also needed by those daily fighting the regime 
inside Iraq, and some linkage has to be established between work 
outside and work within Iraq. Judging from the evidence, the United 
States has so far neglected the forces inside Iraqi territory. I 
recognize that supporting the resistance within Iraq is more 
complicated and entails more risks than supporting the external 
opposition, but ultimately it is this domestic resistance, both 
civilian and military, which carries the responsibility for confronting 
the regime and also bears the consequences its repression and terror.
    Iraqis involved with the resistance often ask these questions:

  --Will the United States support the resistance groups inside Iraq?
  --Will the U.S. protect territory liberated from Saddam's control in 
        the south and center of the country?
  --Why is the United States silent on providing protection for Iraqis 
        in the south and the center, who are being killed by the 
        regime's paramilitary troops and executed in its jails?

    These questions are germane to the issue of how we want to confront 
Saddam Hussein. I believe the United States should address these 
questions squarely because the answers will be inseparable from the way 
we envisage the process of change in Iraq.
    Finally, I would like to stress that for thirty years the Iraqi 
people have suffered under Saddam's brutality, compounded for the past 
nine years by the deprivations of stringent international sanctions. 
They feel that their dual suffering has received only lip-service from 
the world, which has abandoned them and let them down. Helping Iraqis 
is not only in the geo-political interest of the United States, but 
also a moral imperative.

    Senator Brownback. Thank you very much, Ms. Francke. That 
is a very thoughtful analysis of key questions.
    What, Ms. Francke, do you think would be the most important 
thing that the U.S. Government could do near term, now to 
support the opposition and that would help to galvanize these 
three parts that you were saying that are apart? What are the 
things that we need to do right now?
    Ms. Francke. Mr. Chairman, I think a very important step is 
for the opposition to create a unified and broad platform for 
itself and articulate its message clearly.
    But as far as the United States is concerned, apart from 
encouraging such unity, I think the most important step is to 
find a way by which the Iraqi opposition, the INC or anything 
that emerges from it, can have a base of operations in Iraq. I 
think this is crucial. I personally saw what the INC could do 
from Iraqi Kurdistan. It was impressive. It was not perfect but 
it was very impressive. And I think this is an essential way 
forward.
    Senator Brownback. So, the first thing that we need to do 
is to help establish a beachhead for the INC or whatever comes 
out of the July meeting to operate inside Iraq.
    Ms. Francke. Indeed, sir. I think so, yes.
    Senator Brownback. And then have that link the three parts 
together that you identified of the internal opposition, the 
military coups that have been attempted, having them operate 
internally.
    Ms. Francke. I believe that if the opposition has a 
beachhead inside Iraq, it can provide the organizational and 
political framework. The political framework is to provide a 
concept of what the political vision is for Iraq. How are we 
going to operate politically? Organizationally the problem in 
Iraq is that you have groups that are operating independently, 
and there has to be some kind of unified command. I do not 
think that can be done from outside the country. The unified 
command has to be from within.
    Senator Brownback. Is it more important that the INC, or 
whatever comes out of the July meeting, operate inside of Iraq? 
Is that more important than their meeting inside northern Iraq 
in July, or would you put those as steps along the same 
progression?
    Ms. Francke. I would put those as steps along the same 
progression. I think a meeting inside Iraq in July is very 
desirable. However, it does not only depend on the Iraqi 
opposition. It rather depends also on the U.S. administration. 
So, there are two parties that have to agree to the 
prerequisites for a meeting inside Iraq. I think it would be a 
very good idea if it can be done, yes, sir.
    Senator Brownback. And it strikes me that it would be as 
well, that this is a very bold statement and it is a statement 
of clear support. It is not a vague, private statement. It is a 
bold statement of United States support. It is a bold statement 
on the part of the INC, Mr. Chalabi. A meeting and an 
organizational set within Iraq strikes me as some very 
important things to do.
    Mr. Chalabi, how do you react to the analysis of Ms. 
Francke, what she puts forward of the steps that need to take 
place? You articulated a number of things that you would 
suggest for U.S. policy, many of which I took mental note that 
I think sound very good. How do you react to her analysis?
    Mr. Chalabi. I agree with her analysis of the opposition in 
Iraq altogether, and I agree that these groups, these three 
strands that she talked about, ought to be brought into focus 
and work under a common leadership.
    She referred to the experience that we were working with in 
Iraq in the period she mentioned for about 4 years. That is in 
fact what we were doing. We were integrating all the opposition 
that existed in Iraq and linking it to the opposition that was 
outside and enhancing communication between the two sides. We 
were reporting in almost real time on the events that were 
going on in Iraq, bringing the message of the Iraqi people to 
the outside world and bringing the message of the outside world 
to the Iraqi people. And we extended all this and we had 
significant contacts with all the groups, military groups, 
tribal groups opposing Saddam and we were working to get 
everything into focus to move finally against Saddam.
    That is what we need to do now. Let us not go back why this 
did not work earlier, but that is in fact the consensus of 
almost everybody on how to move forward. We need to move 
forward and we have a vehicle for United States support and 
that is the Iraq Liberation Act. It is now very important for 
us to bring into focus all these groups and make use of the 
Iraq Liberation Act.
    Senator Brownback. Anybody on the panel. If the United 
States took an aggressive position at this point and said we 
are going to support a no-drive zone in southern, central, we 
are going to protect from military movement opposition groups 
that develop in those regions, we want to see the INC establish 
itself within Iraq on Iraqi territory, is the fall of Saddam 
imminent then with what you see? I realize that is a tough 
question to predict, but several of you, a number of people, 
have noted key factors that appear to indicate a weakness that 
has not been there previously.
    Dr. Clawson. Sir, if I may, there is the risk that we would 
make this announcement and then Saddam would hit back to test 
us as to how sincere we were and how committed we were. But 
frankly, I think that risk is one that we should run because we 
have put our prestige on the line to get rid of Saddam and 
because, as the other speakers have noted, there is a lot of 
evidence that Saddam is at the weakest state that he has been 
at since 1991. The very fact that Saddam did not take advantage 
of the war in Kosovo to try and strike back at us was really 
rather surprising. That is really his wont. The fact that the 
United States has hit Iraq more than 80 times during the course 
of this year without Saddam provoking some international crisis 
is something that is really quite unprecedented. He likes to be 
on the front pages of the news and to strike back, and he has 
been very quiet recently. It seems that he is quite weak.
    If the United States were to make the kind of statements 
that you spoke about, take the kind of actions you spoke about, 
that would have a catalytic effect throughout the region and 
many governments in the region would decide that the United 
States is pretty serious about this and they might well do 
things which are now rather unthinkable to help provide that 
beachhead inside the country that Ms. Francke was speaking 
about.
    And there are many Iraqis who might take many more risks if 
they felt that there was a powerful friend ready to help them. 
So, I think the catalytic effect of the kinds of statements 
that you are taking would suggest that we might well achieve 
success, and the risk is with taking.
    Ms. Francke. Mr. Chairman, I believe very strongly that 
Saddam has remained in power not because of his strength, but 
because of weaknesses in the opposition that confronts him, not 
weaknesses in their will to confront him, but in their 
resources and in their ability to get together and move against 
him. The focus has been missing. He is not strong. He is very 
weak. But there has not been anybody there to give a firm kick 
to his rotting seat. I think that the process of change will 
actually be rather rapid if all the resources are marshalled 
including substantial and overt U.S. support.
    Mr. Chalabi. Mr. Chairman, I would say to you clearly, 
without equivocation, that if the United States announces no-
drive zones in the south, in the north, and west of the 
country, in very short order Saddam would lose control over 
those areas. We are in a situation which is very different from 
Kosovo in one sense. The Iraqi military, unlike the Serb 
military, do not support Saddam. We have been in touch with, 
continue to be in touch with military commanders. They fear a 
reprisal from Saddam, but if the United States announces a no-
drive zone in the south and in the north and in the west, the 
situation will be very different. Saddam already has lost 
control in the north, and this will embolden the Kurdish 
leaders to take further overt steps to confront Saddam. And in 
the south, I believe he would lose control very rapidly, and 
that is very important because he would lose most of Iraq's oil 
and Iraq's only access to the sea. With that, he cannot stay in 
power.
    Senator Brownback. Well, thank you all very much. It has 
been an excellent panel, very thoughtful, very specific on its 
suggestions, and good at articulating.
    This is a very important issue for the United States and it 
is very important issue for the world, and it is obviously a 
very important issue for the Iraqi people and for their 
freedom. Our objective is to support the people of Iraq so that 
they can join that league of nations and so that they can have 
the same vital human rights that everybody else around the 
world enjoys. And I look forward to that day when that occurs, 
and I hope it occurs sooner--much sooner--rather than later.
    Thank you for joining us, for attending the hearing.
    The hearing is adjourned.
    [Whereupon, at 12:50 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
